<html>
<title> - H.R. 1126, DWIGHT D. EISENHOWER MEMORIAL COMPLETION ACT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
                              H.R. 1126,
                         DWIGHT D. EISENHOWER
                        MEMORIAL COMPLETION ACT

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                      SUBCOMMITTEE ON PUBLIC LANDS

                      AND ENVIRONMENTAL REGULATION

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        Tuesday, March 19, 2013

                               __________

                            Serial No. 113-6

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
      



                  U.S. GOVERNMENT PRINTING OFFICE
80-076                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1374637c53706660677b767f633d707c7e3d">[email&#160;protected]</a>  

                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F. H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Tom McClintock, CA                   Jim Costa, CA
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Cynthia M. Lummis, WY                    CNMI
Dan Benishek, MI                     Niki Tsongas, MA
Jeff Duncan, SC                      Pedro R. Pierluisi, PR
Scott R. Tipton, CO                  Colleen W. Hanabusa, HI
Paul A. Gosar, AZ                    Tony Cardenas, CA
Raul R. Labrador, ID                 Steven A. Horsford, NV
Steve Southerland, II, FL            Jared Huffman, CA
Bill Flores, TX                      Raul Ruiz, CA
Jon Runyan, NJ                       Carol Shea-Porter, NH
Mark E. Amodei, NV                   Alan S. Lowenthal, CA
Markwayne Mullin, OK                 Joe Garcia, FL
Chris Stewart, UT                    Matt Cartwright, PA
Steve Daines, MT
Kevin Cramer, ND
Doug LaMalfa, CA
Vacancy

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON PUBLIC LANDS AND ENVIRONMENTAL REGULATION

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Peter A. DeFazio, OR
Louie Gohmert, TX                    Niki Tsongas, MA
Doug Lamborn, CO                     Rush Holt, NJ
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
Tom McClintock, CA                   Gregorio Kilili Camacho Sablan, 
Cynthia M. Lummis, WY                    CNMI
Scott R. Tipton, CO                  Pedro R. Pierluisi, PR
Raul R. Labrador, ID                 Colleen W. Hanabusa, HI
Mark E. Amodei, NV                   Steven A. Horsford, NV
Chris Stewart, UT                    Carol Shea-Porter, NH
Steve Daines, MT                     Joe Garcia, FL
Kevin Cramer, ND                     Matt Cartwright, PA
Doug LaMalfa, CA                     Edward J. Markey, MA, ex officio
Doc Hastings, WA, ex officio



                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, March 19, 2013..........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     1
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     3
        Prepared statement of....................................     4

Statement of Witnesses:
    Eisenhower, Susan, Representing the Eisenhower Family........     6
        Prepared statement of....................................     8
    Issa, Hon. Darrell E., a Representative in Congress from the 
      State of California, Oral statement of.....................     5
    Moore, Arthur Cotton, Washington, D.C........................    27
        Prepared statement of....................................    28
        Washington Post and New York Times articles submitted for 
          the record.............................................    30
    Reddel, Brig. Gen. Carl W., USAF (Ret.), Executive Director, 
      Dwight D. Eisenhower Memorial Commission...................    16
        Prepared statement of....................................    18
        Letter submitted for the record..........................    26
        Response to questions submitted for the record...........    26
    Shubow, Justin, President and Chairman, The National Civic 
      Art Society................................................    31
        Prepared statement of....................................    33
        Index to Selected Articles, Editorials, and Letters 
          Critical of Frank Gehry's Eisenhower Memorial..........    35

Additional materials supplied:
    The American Institute of Architects, Press release submitted 
      for the record.............................................    47
    Eisenhower, John S.D., Letter submitted for the record.......    10
    Kelley, General P.X., USMC (Ret.), Former Chairman, American 
      Battle Monument Commission, and Former Commander, U.S. 
      Marine Corps, Letter submitted for the record..............    48
                                     



 LEGISLATIVE HEARING ON H.R. 1126, TO FACILITATE THE COMPLETION OF AN 
  APPROPRIATE NATIONAL MEMORIAL TO DWIGHT D. EISENHOWER. ``DWIGHT D. 
                 EISENHOWER MEMORIAL COMPLETION ACT.''

                              ----------                              


                        Tuesday, March 19, 2013

                     U.S. House of Representatives

       Subcommittee on Public Lands and Environmental Regulation

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:03 a.m., in 
Room 1334, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Bishop, McClintock, Lummis, 
Tipton, LaMalfa; Grijalva, Holt, Sablan, Horsford, and Shea-
Porter.
    Mr. Bishop. All right. The hearing will come to order. The 
Chair notes the presence of a quorum, kind of. So this 
Subcommittee on Public Lands and Environmental Regulations is 
meeting today to hear testimony on H.R. 1126, which is called 
the Dwight D. Eisenhower Memorial Completion Act. Under the 
rules, opening statements are limited to the Chairman and 
Ranking Member. However, I ask unanimous consent to include any 
other Member's opening statement in the hearing record, if it 
is submitted to the Clerk by the close of business today.
    [No response.]
    Mr. Bishop. Hearing no objections, that will be so ordered.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. Let me start off with this, if I possibly 
could. I would like to start off this hearing by thanking the 
witnesses, the members of the Eisenhower family, as well as 
others who have a significant appreciation for one of our great 
American heroes, Dwight Eisenhower. It is on this occasion that 
there are a lot of people who are interested in this, a lot of 
attention has been given. Kind of reminds me of a comment made 
by Red Skelton as he was commenting about a funeral of a 
Hollywood mogul that was especially well attended. And he 
simply said, ``Give the public what it wants and it will come 
out in droves.'' That may be what we are attempting to do here 
today.
    I want to make it clear from the outset that I support 
completion of a national memorial to President Eisenhower. I 
think it is important that I emphasize the word ``completion.'' 
Because, from the discussions we have had with those who were 
very close to this particular project, from the family, from 
Members of Congress, I think it is fair to conclude that 
funding the current design to completion will be a daunting 
task.
    Starting in 1999, we have had a process that engaged--I am 
actually grateful for the labor that has been put into this 
project so far. For many, it has been a labor of love for our 
President Eisenhower. And I do want to congratulate the 
Commission and the staff for all their work and their 
persistence and their dedication to an effort.
    However, today we find ourselves in a position that we 
hoped would not necessarily be inevitable, and we certainly 
hoped to avoid. Tomorrow will mark 1 year since our last 
oversight hearing on the Eisenhower Memorial. In that hearing 
we faced head on the controversies regarding the design, in 
particular, the scrims. Also, the question of the selection 
process of a designer. I left that hearing with the assurance 
that discussions would occur with the family and with others 
and with the designer itself, that perhaps modifications would 
be made that could bring the public closer to a consensus on 
this design.
    Unfortunately, 1 year later, we have no conclusion and you 
can actually say that we have concluded that we now could have 
saved a lot of time and money if we had just listened to the 
Eisenhower family who, at the outset of the hearing, called for 
a redesign of the memorial. Taxpayers have now spent $60 
million that has been invested in this project to date. And we 
are going to spend tens of million more to construct and 
complete this kind of project.
    So, approvals have been in limbo for over a year. In that 
time we have received few assurances about the durability of 
the design, even the basic requirement--which is a basic 
requirement of the Commemorative Works Act. It has taken months 
of study and testing to see if this design can be melded and 
manipulated into some specification that can reasonably be 
called durable.
    One of the goals of the hearing last year was to come away 
with a better understanding of the selection process. The 
Commission, the GSA, the NPS testified in support of the 
process, assured us it was fair. And why shouldn't it be? It is 
the same process that was replicated nationwide for a variety 
of Federal buildings and projects. But therein lies the 
problem. Somewhere along the line we failed to recognize that 
this is not a Federal court or a GSA convention hall. This is a 
tribute to a man who was noted for his modesty, and the 
completion should have been open to everyone.
    In reading of the record, the so-called ``open 
competition'' ultimately led to an evaluation of four designs. 
Four designs, that is it. I can understand why certain 
architectural trade associations would be concerned about this 
bill. Heaven forbid we upset a process that is heavily favored 
in the design of large design firms. But can anyone really 
argue that four designs are adequate? Now that the clouds are 
clearing and we are beginning to see why this is being called--
we can see why this was being called, even years before I 
became aware of the project, a monument to a designer with a 
theme about President Eisenhower. That is not the way it should 
be.
    We need, very sincerely, a new set of eyes to look at the 
situation, to clearly review where the money has been spent, 
and where the money will be spent in the future, and an effort 
to bring even greater transparency to this entire process.
    Now, I hope the Committee understands that this is not a 
position I take lightly. There is really, in this effort, no 
political victory to be had. This is about President 
Eisenhower, and a way we can honor a man who led us through 
dangerous times, both in the military and in the political 
sense. Our goal should be to do what is right by the memory of 
Dwight Eisenhower, and take the time necessary to do it the 
right way.
    Congress is entrusted with this process. And Congress 
authorizes different commissions. This Commission needs to be 
re-authorized. This is a time to re-look at the way we are 
doing things and to re-evaluate where we have been and where we 
are going, and where we wish to end.
    I was struck by the words of one of our colleagues, who has 
since retired, one of the nicest men I have ever know, the 
retired Dale Kildee from Michigan, who served on this Committee 
for several decades. At our hearing last year he stated, ``I 
know that Congress does not have a great deal of expertise in 
matters like this. But recognizing that, we do have people who 
have knowledge and things. We have set a process to make sure 
that what we do there on the monuments on the Mall are done 
correctly. And we have never relinquished our authority on 
that. We have always had problems, and we appreciate having a 
process. But, at the same time, we have not relinquished our 
authority in this area or our input on this.'' In fact, it is 
ironic that the Majority of the Commission are, indeed, Members 
of Congress themselves who have to make a final decision.
    So, I agree with what Mr. Kildee said. We may not 
necessarily be experts on design and architecture, but we have 
a responsibility to conduct oversight and to legislate. In many 
respects, we represent the average American who will visit this 
particular memorial. And if this design doesn't make sense to 
us, then why, on earth, would it make sense to them, who are 
the ones actually footing the bill?
    This is not a process that we can turn over because of a 
name. It is a process that must honor the memory of a President 
and a military commander who has done so much for this country 
in a way that is consistent with his life, and a way that is 
consistent with the purpose of a memorial.
    With that, I would now like to recognize the gentleman from 
Arizona, Mr. Grijalva, for any statements that he may have.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you, Mr. Chairman. And thank you for 
holding this hearing. We are going to be--I guess we are going 
to be seeing a lot of each other the rest of this week, and I 
appreciate today all the witnesses taking time to come and talk 
about this legislation and, more importantly, the status of the 
memorial to a great American.
    Almost 1 year ago today we had an initial oversight hearing 
on the Eisenhower Memorial. The hearing last year was the first 
time I became aware of the family's deep concerns about the 
memorial design. The Commemorative Works Act deliberately 
limits the involvement of Congress once the memorial has been 
authorized. While this is the case, issues have been raised 
regarding the use of Federal funding and the function of the 
Commission itself.
    Following the hearing last year, Secretary Salazar and 
several commissioners took a number of steps to bridge the gap 
between the design adopted by the Commission and the strong 
views of the family. From the testimony that has been submitted 
to the Committee, it is clear that the bridge was not built. In 
fact, the gap might--may be wider today than it was a year ago.
    So, where does that leave us? Chairman Bishop has put 
forward legislation that invites a discussion on how to move 
forward. While it is clear that something needs to break the 
current impasse, I want the Committee to think long and hard 
about how we handle this issue and how decisions on the 
memorial might impact future memorials and the precedent that 
is being set.
    I am here to listen today and, again, I appreciate the 
involvement of all the witnesses that are going to be before us 
today. And thank you, Mr. Chairman. I yield back.
    [The prepared remarks of Mr. Grijalva follow:]

     Statement of The Honorable Raul M. Grijalva, Ranking Member, 
       Subcommittee on Public Lands and Environmental Regulation

    Mr. Chairman, thank you for holding this hearing today. We are 
going to be seeing a lot of each other this week. I appreciate all of 
the witnesses making time to come talk about this legislation and the 
status of the memorial.
    Almost one year ago today we had an initial oversight hearing on 
the Eisenhower Memorial. The hearing last year was the first time I 
became aware of the family's deep concerns with the memorial design.
    The Commemorative Works Act deliberately limits the involvement of 
Congress once a memorial has been authorized. While this is the case, 
issues have been raised regarding the use of federal funding and the 
function of the Commission itself.
    Following the hearing last year, Secretary Salazar and several 
Commissioners took a number of steps to bridge the gap between the 
design adopted by the Commission and the strong views of the family. 
From the testimony that has been submitted to the Committee, it is 
clear that the bridge was not built. In fact, the gap may be wider 
today than it was a year ago.
    Where does that leave us? Chairman Bishop has put forward 
legislation that invites a discussion on how to move forward.
    While it is clear that something needs to break the current 
impasse, I want the Committee to think long and hard about how we 
handle this issue and how decisions on this memorial might impact 
future memorials.
    I am here to listen today and again appreciate the involvement of 
our panel of witnesses.
                                 ______
                                 
    Mr. Bishop. Thank you, Mr. Grijalva. Now, we have three 
panels that we are going to hear from. The first panel that I 
would like to welcome is Congressman Darrell Issa, who is 
Chairman of the Oversight and Government Reform Committee. He 
is also a member of the National Capital Planning Commission, 
so he has a unique responsibility with respect to this 
particular memorial.
    Chairman Issa, I thank you for being here. I understand you 
have your own hearing that is going on across the street, so we 
would like to give you 5 minutes for a presentation, after 
which we will offer you an invitation to stay with us for the 
rest of the hearing if you would like to. I kind of think I 
know what your answer will be, but that offer will be extended.
    Mr. Issa, I appreciate you coming over here. You are 
recognized.

  STATEMENT OF THE HON. DARRELL E. ISSA, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Issa. Thank you, Mr. Chairman. And like my former 
Governor, I will return, or, ``I will be back.''
    The fact is that no hearing today is more important than 
this one. The Eisenhower Memorial should be built, and I 
believe must be built. But it also has to be built in a way in 
which, for the next 100 years or more, the American people will 
get meaningful representation of history, the life of this 
great general, this great man, and this great President, from 
the memorial.
    Its position on the Mall, as the Mall fills in, is now, in 
fact, going to be pretty unique. There is no question this 
monument, this memorial, cannot be built if it is inconsistent 
with the views of the people who knew our Commander in Chief 
both in time of war and peace as well as his family.
    When I took over my position on the board, it seemed like 
it was well underway. Shortly thereafter I became aware it was 
well underway and not going in the right direction.
    I would like to today dispel something. I would like to 
dispel the blame that goes to the architect. I don't believe an 
architect should ever be held responsible for anything, other 
than the proposal which is then accepted or rejected. I believe 
that the very steering of the many architectural proposals made 
is as much to blame as many would say even the selection of the 
architect.
    Frank Gehry is a talented and sometimes controversial 
architect. His plans are large, grand, and often expensive. But 
I am here to say today that, in fact, not listening to the 
family, and perhaps a certain level of political inference, not 
in a partisan way, but in a political way, put us where we are 
today.
    The original plans for this memorial had more to do with 
capturing the very events, perhaps from childhood, but through 
the contribution that uniquely Dwight David Eisenhower made to 
us winning World War II, and then winning the peace that 
followed. Today, however, the most controversial portion of 
this memorial, the most expensive, and the one most questioned 
for its durability, is proposed to be simply an image of trees 
that are indigenous to Kansas and are also indigenous to 
everywhere between Kansas and the District of Columbia. That 
doesn't represent a unique contribution.
    I don't think you have to be an award-winning architect. 
You certainly, as just somebody who can look at the 
representation, you can say, ``OK, the trees are interesting, 
but are they worth the kind of investment we have already made, 
the kind of questions about durability, one in which we may 
have to make at least two of them and replace in 30 or 40 years 
this very expensive structure?''
    Again, this was a decision made without cost being a 
concern sufficiently. But also, the question of what is there. 
If every inch of the Mall is critical, then every inch of this 
memorial must be dedicated to a message, and that message must 
be one consistent with the mandate of Congress for recognizing 
the contribution of President and General Dwight David 
Eisenhower.
    Later today you will hear from the family. I have heard 
from the family. I have visited the site in Los Angeles. I have 
looked at the models. I want to make this Committee aware. 
There was a time in which even the controversial backstay 
represented the life of Dwight David Eisenhower in a more 
personal way. I visited virtually every library and memorial 
that I have been able to get to.
    And I bring your attention to Franklin Delano Roosevelt's 
site. It is a little further off the Mall. And it is more 
famous, because, in fact, it steps you through the many years 
of Franklin Delano Roosevelt's contribution. I might mention 
that his contribution is about the same period as General 
Eisenhower and then President Eisenhower. That long period of 
time, that period of history, can, in this space, be 
represented in a meaningful way, in a non-controversial way, in 
one that the family and families for generations to come can 
stand behind.
    So, Mr. Chairman, Ranking Member, I want to thank you today 
for bringing attention to both the fiscal cost and, in fact, 
the controversy that surrounds the current design. I have a 
vote on the Commission, but I know one thing. My vote will no 
longer be castable before this is built. The timeline is such 
that someone will replace me. So, for all of you here today, 
and for me and my time of having a vote on NCPC, it is clear 
what we have to do is steer this memorial back in the right 
direction, ask the question as Americans--and especially for us 
older Americans--does this fairly reflect the unique 
contribution of this great general, this great President, this 
great man, and the time that he lived in and the time that he 
made this contribution?
    So, I leave you to the next panel. I will return after my 
other Committee is over. But what you are doing today is the 
most important thing for the Mall and for the District of 
Columbia, and for how we view that portion of history that will 
be done here this year. And I yield back.
    Mr. Bishop. Mr. Chairman, I thank you for that. I know you 
are having another hearing in the other room. If you have the 
possibility of coming back, why don't we at that time see if 
there is any questions the Committee has for you, and we will 
allow you to go and finish your other Committee hearing, and 
then hopefully have a chance of coming back.
    Mr. Issa. Thank you. Thank you, Mr. Chairman, Ranking 
Member.
    Mr. Bishop. Thank you. Would like to ask our second panel 
to come up. Actually, I would just like to welcome Ms. Susan 
Eisenhower if she would come forward. She is the grand-daughter 
of President Eisenhower.
    We appreciate your willingness to address this Committee, 
again, and to represent the views of your family. It cannot be 
easy, but I appreciate what you are doing. We want to welcome 
you back here, and recognize you also for 5 minutes.
    Is your mic on?
    Ms. Eisenhower. It is now.

                STATEMENT OF SUSAN EISENHOWER, 
               REPRESENTING THE EISENHOWER FAMILY

    Ms. Eisenhower. Mr. Chairman, distinguished members of the 
Committee, I would like to echo the appreciation you have 
expressed with respect to the dedication that has gone into the 
process to establish a permanent memorial to Dwight D. 
Eisenhower. The Eisenhower family is indebted to Members of 
Congress, to the Commission, and to architect Frank Gehry for 
the effort that has brought us to this point.
    We wish to express our specific thanks to you, Chairman 
Bishop and the Committee, for the opportunity to testify today. 
On behalf of the Eisenhower family, we are grateful to you, 
Chairman Bishop, for the invitation, for introducing a bill to 
sustain the momentum on the building of a Eisenhower Memorial 
in Washington, D.C. I would like to note that my sister, Anne, 
is with us today, also a key figure in our family on this 
issue.
    On hearing the news of this bill, the Eisenhower Commission 
Chairman, Rocco Siciliano, said in an email reported to the 
press, ``I am saddened by Congressman Bishop's attempt to 
thwart the memorialization of America's greatest general and 
President, Dwight D. Eisenhower.'' My family and I respectfully 
but emphatically disagree. Congressman Bishop's legislation is 
designed to assure a memorial for Dwight Eisenhower, not to 
thwart it.
    From the moment the current design was adopted, some 
individuals have been determined to link the proposed Frank 
Gehry design to the very future of the memorial itself. This is 
historically unprecedented. This apparent rigidity has damaged 
the effort to build this memorial, and the approach has made 
adversaries out of stakeholders and alienated even the greatest 
supporters of this process.
    Mr. Chairman, you and Chairman Issa have been the first to 
address this impasse that has, unfortunately, developed. And we 
applaud you both for your efforts. We would also like to thank 
the cosponsors of your bill.
    Continuation of the status quo, as has been pointed out, 
will doom the prospect of building a memorial. And you are 
right that no consensus on the memorial design has emerged, and 
that it is time to go back to the drawing board with an open 
process for the redesign of the memorial.
    Significant stakeholders believe that the Gehry design is, 
regretfully, unworkable. My family, as well as countless 
members of the public and the media thinks the design is flawed 
in concept and over-reaching in scale. The recent durability 
study notes the limited lifetime of the metal scrims, as well 
as the potential ice and snow hazard to the public. It also 
notes that the current design to meet Presidential memorial 
specifications would require a duplicate set of scrims to be 
furnished. And, of course, the attendant costs that go with 
that. Yet, despite this, there has been an approach to plow 
ahead, despite these concerns.
    For more than 10 years, my family has raised concerns and 
objections, and there has been sort of a sense that any 
objection has somehow jeopardized the building of this 
memorial. This could not be farther from the truth. The 
President's only surviving son, our father, John S. D. 
Eisenhower, has been clear about his desire to see a memorial, 
but one that reflects his father's values and enjoys a national 
consensus. More than once this year he has weighed in--most 
recently this fall--in a letter to Senator Inouye, who 
expressed some concern about the fact that the family had 
concerns about the design.
    I would like to just outline five quick points from my 
father's letter, which I have furnished this Commission. My 
father writes, ``Though creative, the scope and scale of the 
Gehry design is too extravagant, and attempts to do too much. 
On the one hand, it presumes a greater deal prior knowledge of 
history. On the other, it tries to tell multiple stories.''
    He also points out in point two that taxpayers and donors 
alike will be better served if there is a green, open space 
with a simple memorial. He also makes the point that we are 
grateful, as a family, for those who have conceived of this 
memorial and worked hard for its success. But there is concern 
that the Commission has been intent only in convincing us of 
the virtues of the present design, ignoring my objections as 
articulated by my daughters, Anne and Susan.
    And then he further goes on to say that you may or may not 
agree with our viewpoint. However, as a family, we cannot 
support the Eisenhower Memorial as it is currently designed in 
concept, scope, or scale. ``We request that lawmakers withhold 
funding the project, in its current form, and stand back from 
approving the current design.''
    Having said that, the Eisenhower family does support the 
effort to revitalize this process. This is now Susan talking on 
behalf of my family. There are a number of first steps that 
should be taken, and your bill, Mr. Chairman, does address many 
of these. First of all, a defunding of the current design and 
to put a stop to the expenditures being advanced on this 
particular design. Number two, an open and transparent 
financial accounting of monies used to date, as well as those 
already committed. Number three, a thorough review of the 
fundraising studies commissioned in the past, as well as the 
current effort underway, so that we can assess the financial 
needs of the memorial in the future. And finally, it is just a 
thought, but perhaps a non-partisan group could review the 
above-mentioned elements and suggest proposed organizational 
changes that might be required for building a strong, 
responsive commission organization and a national consensus for 
this memorial.
    Let me close in again expressing our profound appreciation 
to you, Chairman Bishop, and to members of the Committee and 
Chairman Issa. We appreciate you holding this hearing, and for 
your commitment to finding a way to resolve this impasse, and 
for the opportunity to participate. We are deeply grateful to 
all of Congress for their effort to build a lasting memorial to 
Dwight Eisenhower.
    [The prepared statement of Ms. Eisenhower follows:]

   Statement of Susan Eisenhower, Representing the Eisenhower Family

    Mr. Chairman, Members of the Committee,
    I wish to express our thanks to Chairman Bishop and the Committee 
for the opportunity to testify today. I would also like to echo the 
appreciation we have for everyone--Congress the Eisenhower Commission 
and architect Frank Gehry--for their commitment to a memorial to Dwight 
D. Eisenhower in Washington, DC.
    My sister, Anne, is with us from New York. On behalf of the 
Eisenhower family, we are grateful to Chairman Bishop for introducing a 
bill to sustain the momentum on the building of an Eisenhower Memorial 
in Washington, D.C.
    On hearing the news of this bill, Eisenhower Commission Chairman 
Rocco Siciliano said in an email reported in the press: ``I am saddened 
by Congressman Bishops' attempt to thwart the memorialization of one of 
America's greatest generals and presidents, Dwight D. Eisenhower.''
    My family and I respectfully, but emphatically, disagree:
    Congressman Bishops' legislation is designed to assure a memorial 
to Dwight Eisenhower, not to thwart it. From the moment the current 
design was adopted, some members of the Commission and the staff were 
determined to link the proposed Frank Gehry design to the very future 
of the memorial itself. This is unprecedented in the history of 
presidential memorials. This rigidity has damaged the effort to build a 
memorial. The approach has made adversaries out of stakeholders and 
alienated even the greatest supporters of this process.
    Mr. Chairman, you and Chairman Issa have been the first to address 
the impasse that has unfortunately developed. We applaud you both for 
your efforts. We would also like to thank the co-sponsors of your bill. 
Continuation of the status quo, as you have pointed out, will doom the 
prospect of building a memorial. You are right that no consensus on the 
memorial design has emerged and that it is time to go back to the 
drawing board, with an open process for a new design of the memorial.
    Significant stakeholders believe that the Gehry design is, 
regretfully, unworkable. My family--as well as countless members of the 
public and the media--thinks the design is flawed in concept and 
overreaching in scale. The recent durability study notes the limited 
lifetime of the metal scrims, as well as the potential ice and snow 
hazard to the public. It also notes that the current design, to meet 
presidential memorial specifications, would require a duplicate set of 
scrims to be furnished--with the additional costs that would entail. 
Yet despite all this, the Commission's approach is to plow ahead with a 
design that has virtually no support outside of a percentage of the 
architectural community--which has understandably rallied more in 
defense of architect Frank Gehry than for the specific memorial design 
itself.
    For more than ten years my family raised concerns and objections 
that were ignored. We believe they were never adequately communicated 
to all the Commission members. Any disagreement we had with them was 
criticized as an attempt to scuttle the building of the memorial. This 
could not be farther from the truth. The president's only surviving 
son, our father, John S. D. Eisenhower, has been clear about his desire 
to see a memorial, but one which reflects his father's values and 
enjoys national consensus. More than once this year he has weighed in, 
most recently this fall in a letter to the late Senator Daniel Inouye. 
I am providing a copy of the letter today, but the key points he writes 
are this:
        <bullet>  Though ``creative, the scope and scale of it [the 
        Gehry design] is too extravagant and it attempts to do too 
        much. On the one hand it presumes a great deal of prior 
        knowledge of history on the part of the average viewer. On the 
        other, it tries to tell multiple stories. In my opinion, that 
        is best left to museums.''
        <bullet>  ``Taxpayers and donors alike will be better served 
        with an Eisenhower Square that is a green open space with a 
        simple statue in the middle, and quotations from his most 
        important sayings. This will make it possible to utilize most 
        of the taxpayer expenditures to date without committing the 
        federal government or private donors to pay for an elaborate 
        and showy memorial that has already elicited significant public 
        opposition.''
        <bullet>  ``Though the members of the Eisenhower family are 
        grateful to those who conceived of this memorial and have 
        worked hard for its success, we have come to believe that the 
        Eisenhower Memorial Commission has no intention of re-examining 
        the concept, even though there would be ample historic 
        precedent for it. It is apparently interested only in 
        convincing us of the virtues of the present design, ignoring my 
        objections as articulated by my daughters Anne and Susan.''
        <bullet>  ``I am the first to admit that this memorial should 
        be designed for the benefit of the people, not our family . . . 
        You may or may not agree with our viewpoint. However, we as a 
        family cannot support the Eisenhower Memorial as it is 
        currently designed--in concept, scope or scale.''
        <bullet>  ''We request that lawmakers withhold funding the 
        project in its current form and stand back from approving the 
        current design.''
    The Eisenhower family DOES support the effort to revitalize this 
process. Among the first steps might be to defund of the current 
design, including zeroing out money for staff expenditures, except to 
provide services related to an open and transparent financial 
accounting of monies used to date, as well as those already committed. 
A thorough review of the fundraising studies commissioned in the past 
should also be undertaken, as well as the current efforts underway so 
that we can assess financial needs going forward.
    To expedite this process, perhaps an effort should be made to 
establish a neutral, non-partisan group to review the elements 
mentioned above. They could propose the needed organizational changes 
required for building a strong, responsive commission that can manage 
an open competitive design process and succeed in building a national 
consensus on a new memorial design.
    Members of my family wish to thank, again, Chairman Rob Bishop and 
the Committee for holding this hearing, for their commitment to finding 
a way to resolve this impasse and for the opportunity to participate. 
We are deeply grateful to all of Congress for their effort to building 
a lasting memorial to Dwight D. Eisenhower.
                                 ______
                                 
    [A letter submitted for the record from John S.D. 
Eisenhowerfollows:]
[GRAPHIC] [TIFF OMITTED] T0076.001

[GRAPHIC] [TIFF OMITTED] T0076.002

                                 
    Mr. Bishop. Thank you, Ms. Eisenhower, and I appreciate you 
and the family being here.
    I will turn to the panel, see if they have any questions at 
this time. Mr. Tipton, you have been--Ms. Lummis, do you have 
questions?
    Mrs. Lummis. I do, Mr. Chairman. And may I have the 
privilege of the floor? Thank you. Hello, Susan.
    Ms. Eisenhower. How are you?
    Mrs. Lummis. It is nice to see you again. I haven't seen 
you since the Buffalo Bill Historical Center Ball. That was a 
lovely evening.
    Ms. Eisenhower. It was.
    Mrs. Lummis. Welcome.
    Ms. Eisenhower. Thank you.
    Mrs. Lummis. We are delighted to see you here. I so agree 
with your statements. When I look at the memorial that has been 
prepared to Martin Luther King, it is not the Martin Luther 
King that I knew and grew up with. The Martin Luther King that 
I grew up on was a warm, people-person.
    Ms. Eisenhower. Right.
    Mrs. Lummis. And the monument that was done to him is cold 
and, to me, does not depict him in any way.
    So I want to see the President that was the President when 
I was born depicted in a way that the American people remember 
him. And he was not a grand, sweeping, ostentatious individual. 
So I am delighted with your testimony, and in seeing this 
memorial reshaped into something that your family is proud of 
and that we, as Americans, are proud of, and that we believe 
appropriately depicts a memorial to a great general and 
President, rather than a memorial to the artist.
    So, that in mind, I do have a couple of questions. How 
would you describe the memorial commission's treatment of your 
concerns?
    Ms. Eisenhower. Well, we have expressed concerns over the 
course of a very lengthy period of time. We did have a family 
member, my brother David, who served on the Commission. He 
actually did not vote for this specific design, though added a 
voice of assent when the final voting was over. We did, to be 
perfectly candid, have some concerns inside of our family as to 
how much we should continue to speak up and what role the 
family really played in this process. Because my father has 
said in his letter that he does not believe this memorial is 
for our family, it is for the American people.
    But we had many opportunities, regrettably, to find a way 
forward between the family and the Commission. And, as I 
pointed out in my testimony, the Commission's attitude was 
pretty much that if we didn't go ahead with the current design 
we wouldn't end up having a memorial at all, which was, 
frankly, a terrible position to put my family in, if I could 
speak so candidly. We are very respectful that this is a 
memorial for the American people, and we want the American 
people to have a memorial that speaks to them.
    I think we might be in a very different position if the 
public hadn't been so very strongly against this design. This, 
by the way--I agree with Congressman Issa--has nothing to do 
with the talent of Mr. Gehry. But it so happens, as you pointed 
out, that this particular design does not convey a leadership 
opportunity here. Eisenhower led the country during very 
difficult times and, frankly, a period of financial austerity. 
And you know, it is not really appropriate, in our view, that 
something so grand and so out of scope should describe somebody 
who managed and modernized this country, and to move us forward 
during difficult times.
    So we have been increasingly saddened by our relationship 
with the Commission. We, of course, support their work. But 
there, as far as I understand, no Presidential memorial that 
has ever been built that has been built over the objections of 
the family, number one. And, number two, there has never been a 
Presidential memorial ever built on the original design. So it 
is historically consistent for us to be looking at this design, 
and yet we were put in a very awkward and uncomfortable 
position. We would very much like to work with the Commission 
if we could get this process straightened out.
    Mrs. Lummis. Well, thank you, Susan. And I love Frank 
Gehry's work. But I do agree with you that this particular 
design----
    Ms. Eisenhower. Right.
    Mrs. Lummis [continuing]. Is not it. So I am looking 
forward to continued testimony and thoughts in this regard. 
Thank you so much for being here.
    Ms. Eisenhower. Thank you so much.
    Mrs. Lummis. I yield back, Mr. Chairman.
    Mr. Bishop. I understand my friends on this side of the 
aisle--do any of you have questions for this witness?
    The gentleman from California is recognized if you have 
questions.
    Mr. LaMalfa. Thank you, Mr. Chairman. I just want to 
express my appreciation to the Eisenhower family. It is pretty 
neat to be in a position to speak to you or with you here.
    Ms. Eisenhower. Thank you.
    Mr. LaMalfa. And so, the humility you have shown here, 
wanting to have this process be reflective of what General and 
President Eisenhower really stood for, I think, is very 
valuable.
    People would say, yes, the President belonged to all the 
country, he belonged to all the American people. But I think it 
is extremely important that also who he is, who his legacy was, 
needs to have great weight placed upon it by your family here 
and who he was, because you would hate to go by and have that 
memorial be something that is way beyond who you say he is and 
who I believe he was. I was only a few months old when he was 
still President, but I was a very avid reader of his efforts in 
World War II and some of the things he innovated for our 
country post-World War II.
    And so, I think the Gehry effort is a great one. But again, 
we define, as a people to the architect a parameter here. And I 
think this Committee would be very wise to reflect what those 
parameters are with a heavy weight toward the family on that.
    So, I don't really have a question, just a commendation to 
you. And please hang in there and stay active in this. There is 
no reason to shy away. So thank you all.
    Ms. Eisenhower. Well, I am most grateful to you. Thank you.
    Mr. Bishop. Thank you, Congressman LaMalfa. Congressman 
Holt.
    Dr. Holt. Thank you, Mr. Chairman, and it is good to see 
you. Thank you for coming. I certainly appreciate the 
responsible way that the family has approached this, 
recognizing that the family has a stake in this, as does the 
general public, as do generations to come.
    I am a great admirer of our witness's grandfather. My 
father was involved in a campaign with General Eisenhower. My 
mother served in the Eisenhower Administration, appointed by 
the President. As a boy, I met the President and liked the man 
very much. But more, I have just admired the way he used his 
power as general, as President. And I have been eager for the 
day when we would have a suitable memorial to him, something 
that would honor him and draw this generation, the younger 
generation, and future generations in to learn more about him.
    I have followed the debate here over the years, and I 
understood some of the family's objections of the earlier 
designs. It seems to me that it has evolved in response to 
those. And you know, there is no accounting for taste, but I 
sort of like the design we have now. And it does seem to do 
what I would want done for the memory of General, President 
Eisenhower.
    And so, I wonder if there aren't some more changes possible 
that can make it more suitable to everyone. I am sure Ms. 
Lummis talked about the Martin Luther King Memorial. I might 
talk about the Second World War Memorial, which leaves me 
unimpressed. But I am sure there will always be some 
dissatisfaction about any memorial.
    I think there have been real improvements made here. So 
what I wanted to ask you, if I may, Ms. Eisenhower, is what do 
you mean by an entirely new design? What do you mean by 
``fundamentally wrong''? Are there changes to what we have in 
front of us that could make it satisfactory to you?
    Ms. Eisenhower. Thank you very much for your comments. And 
I am delighted to hear that your mother served in the 
Eisenhower Administration. That is really wonderful.
    First of all, I think we, my sister and I--and my sister, 
who is with me today, is a designer, she is an interior 
designer. And we spent a lot of time during this year--we spent 
a lot of time meeting with Frank Gehry, meeting with the 
Secretary of the Interior to discuss what, if any, changes 
could be made that would make a difference. And I know that 
Frank Gehry--I don't think it is a secret, but he is absolutely 
committed to these scrims.
    Now, I think there is no question that it is a very 
innovative technology that he has developed. It is a bit of a 
miracle that you can actually weave metal in that fashion. But 
I think I agree with--I know I agree with Congressman Issa when 
he says that the backdrop here reflects deciduous trees that 
are not distinctive necessarily to Kansas or anywhere else. And 
it is such an expensive element of the memorial that it seems 
to us that that investment should be made in a different way.
    Also, I think the durability design is a very sobering 
thing. I also consulted with some experts here in Washington. I 
was told a year ago that we would have to have a duplicate set 
of scrims kept in storage to be brought out every time the 
other ones had to be repaired. Since this is one-of-a-kind 
technology, it means that a factory is going to make this and 
never make anything like this again. And so, in order to be a 
permanent memorial, we are going to--we, with this design, 
would have to have a duplicate set, which raises the cost of 
this significantly.
    And I think, as innovative as the design may have been, it 
was more reflective of a different time in our Nation's 
history. I guess that is the other way I would answer you. We 
are, again, back in a period of austerity, much like the 1950s 
after World War II. I am proud of the fact, by the way, that 
the Eisenhower Administration actually balanced the budget 
three times in 8 years and managed to work on paying down the 
wartime debt.
    Mr. Bishop. Don't gloat.
    [Laughter.]
    Ms. Eisenhower. And I think that is part of the message 
here, that a memorial that is so grandiose and so large in 
scale sort of misses the point of what his story can offer the 
American public.
    I hope I have answered your question.
    Mr. Bishop. Thank you, I appreciate that.
    Dr. Holt. Thank you. Yes, thank you, Mr. Chairman.
    Mr. Bishop. Thank you. Mr. McClintock, did you have any 
questions?
    Mr. McClintock. Yes. First, with the respect to the design 
of the memorial, our national memorials are for the ages. They 
are supposed to stand the test of time, not showcase faddish, 
avant-garde, experimental designs. And with respect to the 
design of this memorial, I think the lawyers have a phrase for 
that: ``Res ipsa loquitur,'' the thing speaks for itself.
    What I am far more concerned about is the appallingly bad 
judgment that has brought us to this point. Bad process 
ultimately produces bad policy. The result of this Commission's 
work is just appalling. And I want to know how we came up with 
such a monstrosity, and what we need to do to redesign this 
decision-making process to be sure that this kind of outlandish 
result is not repeated with respect to the Eisenhower Memorial 
or, for that matter, any of our future memorials.
    Ms. Eisenhower. Well, thank you very much. I would just 
like to speak to that very briefly. And I am sure you will have 
an opportunity to also pose this question to other testifiers.
    But I do think that the process--we lost an opportunity on 
the first round to open up this process broadly, so that all 
Americans who are architects or even studying architects would 
have an opportunity to compete. Look at what Maya Lin provided 
for this country, the Vietnam Memorial, which is exceptional, 
and she was a student at Yale at the time. So I do think an 
open process is very important.
    But I would also say an open administrative process. We 
have discussed this with my brother at great length. I mean I 
think the record will show that they had very few meetings, and 
most of the business was handled by telephone and other written 
kinds of votes. There is nothing more important than the 
dynamism of getting people into a room and actually hashing out 
ideas, because it is very easy to allow more dominant 
Commission members to prevail under those circumstances.
    I do believe that there is a strong possibility that all 
the Commissioners had no idea of my family's objections. And 
our concerns about how the process was put together were voiced 
repeatedly over those 10 years. And I have a feeling that the 
full Commission did not know this because of the way the 
meetings were conducted.
    So let me just close this idea very quickly. I came up with 
sort of a wild, probably unworkable idea. But I did serve as 
a----
    Mr. McClintock. It couldn't possibly be any worse than the 
process that has brought us to this point, so feel free.
    Ms. Eisenhower. Well, here is a wild idea. I served for 
2\1/2\ years on the Blue Ribbon Commission on America's Nuclear 
Future. That is part of my day job. And, of course, that 
Commission was brought together to try and break the impasse 
over the issue of spent fuel at U.S.-based reactors. And I was 
very impressed by the idea of getting an outside group in to 
kind of examine everything and make some recommendations.
    So, my final recommendation--it is just a wild idea--might 
be to get a group of individuals who have not been part of this 
process to look at the way the Commission was organized, to 
look at a number of managerial issues. It could help us avert a 
situation like this in the future.
    Mr. McClintock. Well, again, I just want to express my 
opinion. Before we redesign the Eisenhower Memorial, which I 
believe is absolutely essential, we first need to redesign the 
process that produced this monstrous perversion of a great man, 
a great achievement, and a great life.
    Ms. Eisenhower. Thank you very much.
    Mr. Bishop. Thank you. If there are no other questions, we 
want to thank you for your testimony. Obviously, we would like 
to invite you to stay. If you need to go, you need to go.
    We would ask you if you would be willing to respond to 
written questions that may come back to us.
    Ms. Eisenhower. It would be my pleasure.
    Mr. Bishop. And once again I want to express my 
appreciation for you being here. I just want you to know I have 
an additional burden on me on why we have to come up with a 
good memorial and do this process properly. The grandfather of 
my chief of staff was your grandfather's Secretary of 
Agriculture for both terms.
    Ms. Eisenhower. Is that----
    Mr. Bishop. He told me I got to do this right. So, one way 
or the other, we are going to get it done.
    Ms. Eisenhower. That is great, thank----
    Mr. Bishop. Thank you, Ms. Eisenhower.
    Ms. Eisenhower. Thank you very much----
    Mr. Bishop. I appreciate you and your family's testimony.
    Ms. Eisenhower [continuing]. Chairman Bishop.
    Mr. Bishop. At this time we would like to bring up the 
third panel, which will consist--I need to get my glasses for 
this--Mr. Arthur Cotton Moore, who is a respected architect in 
this community, Brigadier General Carl Reddel, who is the 
Executive Director of the Dwight D. Eisenhower Memorial 
Commission, and Mr. Justin Shubow--if I pronounced that 
properly--who is President of the National Civic Art Society. 
We appreciate all of you being here.
    I am assuming everyone here has been through this drill 
before, so you understand the clock is before you which will 
give you the time that remains for your comments. We would ask 
you--obviously, your written testimony is made part of the 
record. We ask you to limit your oral testimony to 5 minutes 
and then we will go through a round of questions.
    At some point in the next few minutes, I am going to have 
to go to another meeting I have at the Capitol. I will ask Ms. 
Lummis in a couple of minutes if she will take over. And so, if 
I leave in the middle of your testimony, I will apologize in 
advance. It is nothing personal, I will come back, as well.
    So, if I can just go from left to right, General Reddel, if 
we could ask you to go first, then Mr. Moore, then Mr. Shubow. 
Is that proper?
    Mr. Shubow. It is Shubow.
    Mr. Bishop. Shubow. I am sorry. The emphasis was wrong. I 
apologize for that.
    If we can ask you to go first, General, you have 5 minutes. 
We would like to recognize you at this time.

    STATEMENT OF BRIG. GEN. CARL W. REDDEL, USAF (RETIRED), 
  EXECUTIVE DIRECTOR, DWIGHT D. EISENHOWER MEMORIAL COMMISSION

    General Reddel. Good morning, Mr. Chairman, Ranking Member, 
and members of the Subcommittee. My name is Carl Reddel, 
formerly of the United States Air Force, and now privileged to 
serve as the Executive Director of the Eisenhower Memorial 
Commission.
    Mr. Chairman, I would like to thank you for the opportunity 
to be here. I look forward not only to offering my own 
thoughts, but to hearing those of the other distinguished 
members of this panel. I am also pleased to have the chance to 
respond to any questions the Subcommittee may have. I have 
submitted written testimony that provides further detail to 
augment these oral remarks.
    With your permission I would like to submit for the record 
a letter from General P.X. Kelley, former commandant of the 
Marine Corps, and former Chairman of the American Battle 
Monuments Commission. General Kelley now chairs the Advisory 
Committee of the Eisenhower Memorial Commission, and he is with 
us today.
    I would like to also note that we have with us today 
Commissioner Alfred Geduldig.
    As you know, the legislation establishing the Commission 
ensured congressional direction and control by having four 
Members of the House and four Members of the Senate appointed 
to the 12-member Commission. The Commission has benefitted 
immensely from their leadership and direction, especially from 
the three World War II veterans who served under General 
Eisenhower. They have provided a living bridge with the past, 
and a passionate commitment to sharing Eisenhower with future 
generations.
    Sadly, we are without our former Commission Vice-Chairman, 
the late Senator Daniel Inouye, a World War II Medal of Honor 
recipient for valor. No Member of Congress was as selflessly 
devoted as Senator Inouye to the memorialization of great 
events and leaders in American history, including his 
leadership of the FDR Memorial Commission. Senator Inouye 
continually urged us to move faster, and repeatedly asked me 
that we dedicate the memorial while he was living. I salute the 
Senator, and regret that we were not able to carry out his 
wishes.
    Since our last hearing only exactly a year ago today, the 
Commission has paused at the request of some Members of 
Congress and of the Eisenhower family, while completing the 
memorial design phase. This pause has provided the opportunity 
for the Commission to meet with the Eisenhower family and with 
Members of Congress who have publicly voiced objections to the 
memorialization.
    Some of the design changes that have been made are 
reflected in the images shown on the screens in this room. Most 
importantly, these images reflect the presentation of General 
and President Eisenhower in heroic-sized, independent statuary, 
in place of the more subtle, baas relief images shown in the 
past. The refinement of the images you see here continues, and 
the Commission must now present these changes for the review of 
the approval agencies.
    Elements of controversy continue. The proposed 
memorialization has both strong supporters and vocal critics. 
The historical record suggests that great iconic architecture 
is controversial. Witness the emotional disputes over 
representing our first President with an obelisk. Henry Bacon's 
design of the Lincoln Memorial is too grandiose for a humble 
man born in a log cabin. And the FDR memorialization debate 
over placing President Roosevelt in a wheelchair.
    Previous iterations of Frank Gehry's design have both been 
praised by the Commission of Fine Arts and derided by others. 
History will judge if it is brilliant and if it becomes part of 
the historical fabric of the Capital and the Nation. In the 
meantime, our government has set up a method for guiding us 
through this process, and we have been well-served by it. The 
Eisenhower Memorial Commission has worked closely with its 
sponsoring agency, the National Park Service, and has 
benefitted from the management of its contracts by the General 
Services Administration, as well as benefitting from GSA's 
administrative and management experience with large building 
projects. These relationships have developed over a 12-year 
period of careful, deliberate work by the 12 commissioners 
benefitting from the input received at 22 public meetings 
during the 2-year design phase.
    The Eisenhower Memorial Commission supports Mr. Gehry's 
proposed design changes. He immersed himself in the life and 
legacy of Dwight David Eisenhower as General and Supreme 
Commander of the Allied Forces in a horrific World War, and as 
President of the United States at an unprecedented time of 
global tension and nuclear threat.
    The design developed by Mr. Gehry and approved by the 
Commission masterfully met the challenges of a complex urban 
site, which he integrated and defined with artistic depictions 
of the Kansas landscape. The result is the creation of a 
beautiful urban park within which the Eisenhower Memorial 
resides.
    In conclusion, Mr. Chairman, I thank you and the 
Subcommittee for the opportunity to provide this information. 
The Commission has been working persistently, vigorously, and 
sincerely in a dedicated effort to appropriately memorialize 
one of our Nation's great Presidents in the 20th century. We 
have an excellent and inspirational design, and we have a solid 
plan for the way ahead.
    We believe this memorial will serve to educate and motivate 
young and old American citizens and international visitors. I 
am happy to take questions, Mr. Chairman.
    [The prepared statement of General Reddel follows:]

    Statement of Brig. Gen. Carl W. Reddel, USAF (Ret.), Executive 
           Director, Dwight D. Eisenhower Memorial Commission

The Commission in 2012 and 2013
    Since our last hearing, the Commission has been busy completing the 
memorial design phase. The memorial site, which was approved by 
Congress on May 5, 2006 (PL 110-220) is a disparate parcel which must 
be combined into a whole site prior to it becoming a unified square 
fitting of a presidential memorial. This site, through it is listed in 
the top three to be developed in National Capital Planning Commission's 
Memorials and Museums Master Plan, is a difficult site for a memorial. 
The design developed by Frank Gehry and approved by the Commission 
masterfully met the design challenges of the site while creating an 
appropriate, permanent national memorial to General and President 
Eisenhower, as mandated by the Commission's authorizing legislation.
    In 2012, the Commission planned to take the preferred memorial 
design to the National Capital Planning Commission (which along with 
the Commission of Fine Arts is responsible for approval of the design) 
for preliminary approval. Due to opposition that surfaced in the public 
domain during the latter part of 2011 and early 2012, the Commission 
directed the design team to meet with individuals who had expressed 
reservations, including members of the Eisenhower family and members of 
Congress.
    In meetings throughout 2012, including private meetings with 
designer Frank Gehry, Senator Pat Roberts, a member of the Commission's 
Executive Committee, and Interior Secretary Ken Salazar, the Eisenhower 
family had several opportunities to provide direct input regarding 
potential changes in the memorial design. Mr. Gehry made a number of 
modifications to the design in response to comments he received, such 
as the portrayal of Eisenhower in statuary of historic size within the 
Memorial core. Senator Roberts, along with other key members of the 
Commission, made extensive efforts to mediate concerns of the 
Eisenhower family.
    Concurrently, the Commission sought to use its available federal 
funds wisely, and the design team continued developing the memorial's 
construction documents, which are now over 90 percent complete. In 
addition, the Commission staff made progress, along with the General 
Services Administration, in construction procurement developing the 
electronic memorialization, pursuing the private fundraising campaign, 
and meeting with Commissioners on memorial quotations. These actions 
were intended to avoid the prospect of significant delays and attendant 
expense that would inevitably arise from stopping development activity 
while further feedback was sought on the memorial design.

About the Eisenhower Memorial Commission (EMC)
    The Dwight D. Eisenhower Memorial Commission is a bipartisan 
Commission created by Congress. It is charged with establishing a 
national, permanent memorial to Dwight D. Eisenhower to perpetuate his 
memory and his contributions, specifically his service as Supreme 
Commander of Allied Forces in World War II and as 34th U.S. President. 
This memorial will be of the highest caliber, joining other Washington, 
D.C. landmarks such as the Washington, Jefferson, Lincoln, Roosevelt 
and World War II Memorials. It will honor Eisenhower's memory and 
celebrate his achievements, inspiring and educating all who visit. All 
of the Commission's activities contribute to realizing this goal.
    The Commission was created on October 25, 1999 by Public Law 106-
79. As amended, the law states, ``The Commission may establish a 
permanent memorial to Dwight D. Eisenhower on land under the 
jurisdiction of the Secretary of the Interior in the District of 
Columbia. . . .''
    The Commission consists of twelve members, including eight Members 
of Congress.
Appointed by the President:
        <bullet>  Rocco C. Siciliano, Chairman (Beverly Hills, CA)
        <bullet>  Alfred Geduldig (New York, NY)
        <bullet>  Susan Banes Harris (Potomac, MD)
        <bullet>  Vacant (Previously filled by David Eisenhower, 2001-
        2011)
Appointed by the President Pro Tempore of the Senate
        <bullet>  Vacant (Previously filled by Daniel K. Inouye, 2001-
        2012)
        <bullet>  Jack Reed (D/Rhode Island)
        <bullet>  Pat Roberts (R/Kansas)
        <bullet>  Jerry Moran (R/Kansas)
Appointed by the Speaker of the House:
        <bullet>  William (Mac) Thornberry (R/Texas)
        <bullet>  Vacant (Previously filled by Leonard Boswell, 2001-
        2012)
        <bullet>  Michael Simpson (R/Idaho)
        <bullet>  Sanford Bishop, Jr. (D/Georgia)
    These Commissioners, from New York to California, Rhode Island to 
Texas, and of course from Kansas, are charged with carrying out the 
mission to construct the memorial. Commissioners are appointed by 
either the Speaker of the House or President Pro Tem of the Senate, in 
consultation with the Majority and Minority Leaders of their respective 
bodies; or by the President of the United States. All twelve of these 
individuals were chosen by the government to carry out the public 
mission of memorializing General and President Eisenhower.

Senior Leadership
    Chairman Rocco Siciliano is a World War II combat-decorated 
infantry veteran who served as Special Assistant to President 
Eisenhower for Personnel Management.
    Senator Daniel K. Inouye was Vice Chairman from 2001 until his 
death in late 2012. He was a World War II Medal of Honor recipient for 
valor and continuously represented Hawaii in the United States Congress 
since President Eisenhower signed its statehood into law in 1959. 
Senator Inouye, former Chairman of the FDR Memorial Commission, modeled 
the EMC's legislation on that previous Commission. Having served on 
that Commission for over four decades, Senator Inouye drew on his 
background and expertise on presidential memorialization throughout his 
service as Vice Chairman of the Eisenhower Memorial Commission

Commission Staff
    Executive Director Brig. Gen. Carl Reddel, USAF (Ret.), served as 
President and CEO of the Eisenhower World Affairs Institute (EWAI) 
following his retirement from the United States Air Force, where among 
other responsibilities he was a Professor and Head of the Department of 
History at the United States Air Force Academy. Gen. Reddel joined the 
Commission in June 2001.
    The Commission is staffed by temporary federal employees in 
accordance with legislation passed in May 2008 (P.L. 110-229). Brig. 
Gen. Reddel, the Commission's Executive Director, leads the core staff 
of eight full-time temporary federal employees and one full-time (the 
Commission's Executive Architect) and two part-time contract 
consultants.

Site Selection
    In 2005, the Eisenhower Memorial Commission (EMC) completed its 
review of 26 potential sites for the National Eisenhower Memorial. 
During this process, at the request of Senator Ted Stevens, the 
Commission pursued the possible joint development of the memorial with 
existing plans for a new headquarters of the United States Institute of 
Peace. Ultimately a proposed joint development arrangement negotiated 
by the Commission and its Special Counsel, in consultation with the 
Eisenhower family, was deemed not acceptable by the family and the 
Commission pursued other possible sites. In November 2004, following a 
request of the Eisenhower family, the Commission pursued establishing 
the memorial inside the Yates Building (the Auditor's Building) at the 
corner of Independence Avenue and 14th St. NW. However, when the matter 
came before the Commission in March 2005, Commissioner David Eisenhower 
stated it was not appropriate to put a memorial for one person inside a 
building named for someone else and that site was no longer pursued.
    In June of 2005, after exhaustive investigation, the EMC selected 
its preferred location--a potentially remarkable four-acre site at the 
base of Capitol Hill and one of the top twenty sites in Washington, 
D.C. designated by the National Capital Planning Commission (NCPC) for 
a future memorial. This site at the intersection of Maryland and 
Independence Avenues, SW, between 4th and 6th Streets, is prominent, 
accessible, and has strong thematic connections with Eisenhower.
    All of the neighboring institutions were influenced by Eisenhower's 
presidency. He created the precursor to the Department of Education, 
immediately adjacent to the site's southern border. He also created the 
National Aeronautics and Space Administration, whose work is 
highlighted at the National Air and Space Museum across the street to 
the north of the site. The site also boasts a stunning view of the U.S. 
Capitol along the Maryland Avenue view corridor, reflecting 
Eisenhower's exceptional respect among all Presidents for the authority 
of Congress.
    In May 2006, Congress and the President approved P.L. 109-220, 
selecting Eisenhower as an appropriate subject for a memorial within 
Area I, the prominent area of the Capital reserved for memorials of 
pre-eminent historical and lasting significance to the Nation. In 
September 2006, both the National Capital Planning Commission and the 
Commission of Fine Arts voted on and approved the Commission's 
preferred location as the future site of the Eisenhower Memorial. The 
site has been informally named ``Eisenhower Square.''
    In 2007, the EMC contracted with Skidmore, Owings and Merrill LLP 
(SOM) to create the Pre-Design Program to communicate to the 
prospective designer what the National Eisenhower Memorial should be, 
including goals, requirements, constraints, and opportunities. This 
effort included interviews with Commissioners, scholars, authors, 
Eisenhower family members, Eisenhower contemporaries, and many others.

Selection of Frank Gehry and the Preferred Design Concept
    In 2008, the Commission engaged with the General Services 
Administration's Design Excellence Program for design team procurement. 
As agreed to by the Commission, the competition was open to any U.S. 
citizen with a design portfolio. The initial request for proposals 
garnered forty-four submissions, with four design teams advancing to 
final consideration.
    Following the GSA design team procurement recommendation, on March 
31, 2009, the Eisenhower Memorial Commission unanimously selected 
world-renowned architect Frank Gehry of Gehry Partners LLP as the 
designer for the National Eisenhower Memorial. Frank Gehry is one of 
the world's most celebrated architects, and has won the American 
Institute of Architects (AIA) Gold Medal, the Pritzker Prize, Britain's 
Royal Gold Medal, Japan's Praemium Imperiale, the Order of Canada, and 
the National Medal of Arts.
    In January 2010, the Commission announced its selection of the 
Gilbane Building Company for design and construction management 
services. Gehry Partners and Gilbane's contracts were finalized at the 
outset of 2010, marking the official beginning of the design process.
    On March 25, 2010, the Commission chose the preferred design 
concept for the National Eisenhower Memorial out of four possible 
options. The design selected encompasses a world-class memorial and 
civic space including time-honored memorial elements of sculpture, bas 
reliefs, tapestry, and quotations in materials which will endure 
through the ages. From the outset, these included large representations 
of the General and President.
    During the design phase, Frank Gehry immersed himself in General 
and President Eisenhower's life, traveling to Abilene, Kansas for a 
first-hand education on the life of his subject at the Eisenhower 
Presidential Library and Museum. The design team also worked with 
Eisenhower historians and the senior co-editor of the Eisenhower 
papers, Professor Louis Galambos, of Johns Hopkins University, to 
ensure that the design elements were historically accurate and true to 
their subject.

Memorial Design Phase: 2010-2012
    On March 25, 2010, the Commission convened to unanimously choose 
the preferred design concept for the Memorial out of four possible 
options. This design encompasses a world-class memorial and civic space 
combining stunning, never-seen-before elements and time-honored 
elements of stone and statuary.
    In 2010 and 2011, the Commission and design team successfully 
completed several rounds of meetings with federal review agencies--the 
U.S. Commission of Fine Arts (CFA), the National Capital Memorial 
Advisory Committee (NCMAC), and the National Capital Planning 
Commission (NCPC) (see Appendix I). The design team continued to refine 
the preferred design concept and alternatives throughout this time, 
culminating in the endorsement by the Eisenhower Memorial Commission of 
Frank Gehry's progress on their preferred design in July 2011.
    Throughout much of 2011, the design team conducted significant 
research and testing on potential materials and vendors for the 
memorial's stunning tapestries, to great positive effect. In late 
summer 2011, Eisenhower Memorial Commission and CFA and NCPC 
Commissioners and staff viewed and evaluated tapestry samples from 
three separate vendors. The Commission hung the best of the tapestry 
`mock-ups' on-site in late August and again in September, receiving 
near-universal acclaim for their transparency and beauty, along with 
respect for the determination of the design team to get this important 
feature of the design correct.
    In September of 2011, the Commission of Fine Arts unanimously 
approved the memorial's design concept, noting that the scale was 
correct, and expressing great enthusiasm for the development of the 
design and the artistic quality of the tapestry mockups. They further 
noted that the sophistication of the design and the proposed artistic 
treatment ``will transform the site and the context of adjacent federal 
buildings.''
    The stunning tapestry mock-ups also earned admiration from the U.S. 
Secretary of Education, who welcomed the memorial as a new neighbor in 
a letter wholeheartedly endorsing the memorial design in October 2011. 
The Architect of the Capitol also expressed its support for the design 
in a letter that same month, applauding the Commission's ``decision, 
courage, and commitment of time'' to work within the Section 106 
process to better the design.
    The Commission and design team participated in a series of NEPA/
Section 106 meetings throughout 2010 and 2011, named for the section of 
the National Historic Preservation Act of 1966 (NHPA), which requires 
federal agencies to take into account the effects of their undertakings 
on historic properties. The 106 process concluded with a Memorandum of 
Agreement (MOA) in March 2012, which outlines agreed-upon measures that 
the agency will take to avoid, minimize, or mitigate adverse effects on 
historic attributes. A parallel process also addressed the impact of 
the memorial design on the environment through the Environmental 
Assessment (EA). The Memorandum of Agreement is necessary before the 
National Park Service (NPS), the memorial's sponsoring agency, can 
issue a Finding of No Significant Impact (FONSI), which is the result 
of the EA. This must occur before NPS can issue a construction permit 
for the memorial, and before NCPC can approve the memorial's design. 
This process enables public comment provided by any interested parties, 
including memorial neighbors, the government of the District of 
Columbia, and the public, whose comments were considered carefully by 
the design team.
    In March 2012, the FONSI was issued. This issuance of the FONSI 
allowed the National Park Service, the memorial's sponsor, to take the 
Commission's preferred design concept to NCPC to obtain preliminary 
approval. Throughout the design phase, the Commission and design team 
worked to mitigate potential obstacles in attaining design approval, 
keeping Commissioners, their staff, and the staff of the House and 
Senate Appropriations Subcommittee on the Interior and the Committee on 
Natural Resources informed during this process.
    Although extensive testing on the durability of the materials used 
for the memorial was always a requirement, this testing was moved up in 
the design and construction schedule to respond to requests made by the 
NCPC. The design team performed these tests in consultation with the 
National Park Service and NCPC staff and at the request of NCPC. The 
initial study of tapestry engineering and testing data has found that 
the stainless steel materials are satisfactory. The next stage of 
testing on the welds will be presented to NCPC prior to final approval.
    As a Congressional commission, EMC and design team staff have met 
with and been particularly responsive to members of Congress, 
responding to formal and informal requests for information, including a 
Committee on Natural Resources-Subcommittee on National Parks, Forests, 
and Public Lands hearing in March 2012. Throughout 2012, the Commission 
provided fulsome responses to inquiries regarding its activities and 
the evolution of the memorial design, and has welcomed every 
opportunity to meet with interested parties, hear comments on the 
proposed memorial, and address issues that have arisen.
    Congressional and Presidential Commissioners played a direct and 
important role during this time, and EMC staff continues to work in 
concert with them and their staff to enable communication and feedback. 
In a May 2012 meeting, the Commissioners endorsed moving forward with 
the preferred design that was unanimously agreed-upon in 2011. As an 
on-going process which commenced in 2012, Commissioners have also 
provided input to staff on the initial stages of determining quotations 
for the memorial.
    The Commission intends to continue its constructive and positive 
engagement with District of Columbia leaders, including Eleanor Holmes 
Norton, the Deputy Mayor for Planning and Economic Development Victor 
Hoskins, and Councilman Tommy Wells, who represents the district within 
which the Memorial site is located. In 2013, an economic impact report 
was prepared which estimated the financial gain for the District as a 
result of the memorial. The report, prepared by Dr. Stephen Fuller and 
Agnes Artemel of George Mason University's Center for Regional 
Analysis, concluded that the memorial will generate $30.1 million in 
annual visitor spending in the District that would not have been spent 
in the District in absence of the memorial. This would generate $39.1 
million a year to the District Gross State Product.
    The Commission also continues to cooperate with agencies at the 
federal level, including its on-going partnership with the Department 
of Education (DoEd) to establish an attractive and useful promenade 
between the memorial and the main entrance of the neighboring Lyndon B. 
Johnson building. Commission staff has maintained coordination with 
officials from Secretary Duncan's office and GSA in order to enhance 
and activate the area adjacent to the memorial. This work builds on the 
letter the Commission received from Secretary of Education Arne Duncan 
in October 2011, which expressed his pleasure at the memorial design 
and ``the great potential for public engagement that the memorial will 
bring'' to the DoEd, including enhancements such as space and 
facilities for new exhibits, meetings, events, and even retail. In 2013 
and throughout the construction phase, the Commission will continue to 
work with the DoEd to bring this plan to reality.
    The Commission also works in partnership with the National Archives 
and Records Administration and the Eisenhower Presidential Library and 
Museum in Abilene, Kansas. This relationship enables the Commission to 
benefit from established federal resources in order to ensure that the 
memorial is an authentic representation of the Eisenhower historical 
legacy.
    Over the years, taxpayers have created a superb data base in the 
Eisenhower Library. Eisenhower's national memorialization will enable 
the sharing of this existing resource with the nation and the world. 
This partnership continues to be particularly useful as the Commission 
develops the E-Memorial, which is the on-site and off-site electronic 
memorialization of the president and general. The Commission expects 
that, once the memorial is completed, its prominent presence in the 
nation's capital will draw further attention to the library, cementing 
the reciprocal relationship between both entities. E-memorial 
development was a priority for the Commission in 2012, and the first 
phase of the E-memorial, focusing on the Commission's website, has 
already been completed.
    The National Park Service, the memorial's sponsor, continues to 
play a key role in completing the design phase of the memorial and 
moving onto the construction phase. The completion of the FONSI in 2012 
and the attainment of preliminary and final approval from NCPC in 2013 
are necessary prior to ground-breaking. NPS and the Secretary of the 
Interior have played an active role in moving the National Eisenhower 
Memorial closer to fruition. In 2012, the NPS commissioned a Total Cost 
of Facility Ownership report which concluded that the expected cost of 
memorial operations and maintenance is comparable to the Martin Luther 
King, Jr. Memorial. NPS' leadership in sponsoring the memorial at NCPC 
and CFA approval reviews will ensure that memorial construction 
continues without delay in 2014 and 2015.

Description of the Memorial Design
    The National Eisenhower Memorial in Washington, DC uses the 
traditional memorial forms of sculpture, bas relief, tapestries, 
realistic images and quotations, to honor Ike's unparalleled 
achievements in behalf of his country. For over 1,000 years, societies 
have employed these classic elements to recognize and memorialize their 
great leaders. In the design for this first presidential memorial to be 
built in our 21st century, Frank Gehry, America's foremost architect, 
has designed a memorial which speaks to Ike's great achievements while 
recognizing his humanity.
    Unlike other presidential memorials in Washington, DC, the 
Eisenhower Memorial will be located within a new urban park space, 
flanked by District streets. The Eisenhower Memorial is set within four 
acres of new parkland directly across from, and south of, the National 
Air and Space Museum. The memorial honors Eisenhower's achievements as 
the Supreme Allied Commander in World War II and as the 34th U.S. 
President in heroic-scale free standing bronze sculptures and bas 
reliefs on monumental stone blocks. Quotations from some of his most 
memorable speeches will be inscribed on nearby walls. Completing the 
powerful sculptural composition, a human-scale realistic statue of 
Eisenhower as a young man will be looking out to the images of the 
great military leader and president he will become. The setting for the 
memorial is elegantly created by an 80-foot tall limestone-clad columns 
supporting woven, stainless steel tapestries, which depict the Kansas 
plains where he grew up and where he developed the values and character 
which helped guide him to greatness.
    Pedestrians will arrive at the site from all four corners of 
Eisenhower Square, entering by passing under one of the tapestries, and 
converging in the center at the memorial itself. The positioning of the 
stone sculptures and bas reliefs and the quotations wall create an area 
for quiet contemplation within, but separate from, the more active 
urban civic space. The memorial visitors will be able to talk to 
National Park Service rangers to learn more about Eisenhower. Group 
seating areas are provided throughout the site for school groups to 
gather and participate in presentations and discussions with their 
teachers.
    The memorial is separated from its nearest neighbor, the U.S. 
Department of Education, by the 50-foot wide LBJ Promenade. This 
pedestrian promenade design provides an unprecedented enhanced 
opportunity for the Department to engage with the public through 
interactive exhibits and other forms of outreach. An overlook at 
Promenade level provides a large, elevated gathering space for the 
Department and for visitors to view the memorial.
    The memorial design masterfully creates an allee of trees along the 
portion of Maryland Avenue which formerly traversed the site. The 
commanding vista along the allee to the east directs the memorial 
visitor's eye to the dome of the Capitol, in part to recognize 
Eisenhower's extraordinarily collaborative and productive relationship 
with Congress.

E-Memorial
    In March 2004, the Commission adopted a formal resolution in which 
it declared that the Eisenhower Memorial would be composed of both a 
physical memorial and a living memorial. The living memorial was 
described as including ``sponsored historical or policy research, 
publications, public presentations, commemorations or programs that 
will advance and perpetuate the legacy of Dwight D. Eisenhower and his 
contributions to the United States of America.'' In an effort to 
further define this latter concept, the Commission authorized a grant 
of up to $400,000 to the Eisenhower World Affairs Institute, then 
headed by Susan Eisenhower, with a mandate to coordinate with the 
existing Eisenhower legacy organizations and to develop a proposal 
suitable for adoption by the Commission. The report produced by the 
Eisenhower World Affairs Institute reflected a lack of consensus of the 
legacy organizations and did not embody actionable recommendations for 
Commission as to how its objective of a living memorial might be 
achieved.
    In 2007, the six legacy organizations jointly agreed that their 
existence represents the Living Memorial to Dwight Eisenhower and they 
unanimously supported the idea of electronic representation of 
themselves and their work within the physical elements of the memorial. 
This concept, which we refer to as the E-Memorial, is presently being 
developed.
    The National Eisenhower Memorial will be the first national 
presidential memorial of the 21st century and the first to incorporate 
an electronic companion memorial. The Commission has selected the New 
York City-based, award-winning media design firm, Local Projects, to 
design the E-Memorial.
    The E-Memorial consists of an on-site component and an off-site 
(website) component. Through a downloaded app, visitors will use their 
personal mobile devices to enhance the visit to the physical memorial. 
This app will provide a superior educational experience. There will 
also be resources available for teachers planning a visit. National 
Park Service Ranger commentary will be available for those who choose 
not to use their personal electronic devices. This technology is 
flexible enough to be updated. The Commission is coordinating with the 
Eisenhower Library in Abilene, Kansas, and the National Archives and 
Records Administration, to ensure that these already-established 
federal resources have a role in the continued interpretation of the E-
Memorial, to ensure that the information remains accurate and 
interesting.

Federal Contracting and Oversight
    The U.S. General Services Administration-National Capital Region 
(GSA-NCR) Public Buildings Service is the contracting agent for the 
Eisenhower Memorial Commission for the above work. The National Capital 
Region GSA office is designated to assist public commissions such as 
the EMC in the procurement and management of the above types of 
contracts. The Commission's Design and Construction Management 
Consultant directly serves GSA staff in executing these 
responsibilities.

Funding
    At the outset of the Commission's activities, a study was 
undertaken of Presidential memorials in Washington DC. It was 
determined that there are six national Presidential memorials, to 
Washington, Jefferson, Lincoln, Franklin Roosevelt, Theodore Roosevelt, 
and John F. Kennedy.
    These memorials were principally funded by the government, the most 
recent of which was the FDR memorial which was 89 percent federally 
funded. Members of the Eisenhower family have expressed concerns since 
the initial days of the Commission that any private fundraising for the 
Memorial could negatively impact the fundraising of the legacy 
organizations. Initially, it was intended that there be no private 
fundraising for the Eisenhower Memorial.
    As the Commission is a member of the Legislative branch, as opposed 
to a private initiative, it has been entirely funded by federal funds. 
In 2008, the House Appropriations Subcommittee on the Interior advised 
the Commission that it was expected that there be a private funding 
component for the Memorial. No specific amount was given. In 2011, the 
Commission hired Odell, Simms & Lynch, a firm with fundraising 
experience for memorials and other public projects, to lead a private 
fundraising effort.
    The estimated cost for the construction of the memorial, including 
operating the Commission, site preparation, construction of the 
memorial, GSA fees, and a construction management firm, is $114.8. The 
Commission has requested 80 percent federal funding, approximately $90 
million. For FY2012, the Commission received one third of its request, 
$32.9 million to begin construction of the memorial. Because 
preliminary approval from NCPC is delayed until later this year, the 
EMC does not need FY 2013 construction funds.

Conclusion
    In conclusion, we at the Commission--both our Commissioners and 
staff--are appreciative of the opportunity to come before you today for 
this discussion of the memorial. As you can see, the Commission has 
been working for well over a decade in a sincere and dedicated effort 
to memorialize one of our Nation's great Presidents of the 20th 
century.
    The commission has been faithful to the proscribed GSA processes 
for both the design competition and contracting protocols. It is 
important to note that in terms of both time and money, a large 
investment has been made. The selection process yielded the premier 
designer and architect of the 21st century to lead this landmark 
effort.
    This has been a deliberative and extensive process from the 
beginning, with over 23 public meetings that provided a forum for 
public comment. The Commission has greatly benefitted from the 
participation of the Eisenhower family via David Eisenhower's 
participation as a Commissioner for a decade. As well, members of the 
family have appeared at Commission meetings and Frank Gehry has held 
several meetings with the family, particularly over the last year, to 
obtain their input, and has made changes to the design as a result.
    The Commission of Fine Arts has unanimously given its concept 
approval of this design, citing the beauty of the tapestries and the 
appropriateness of the memorial's scale. As we stand today, the design 
stage is near completion.
    It is time to build this memorial.
    [GRAPHIC] [TIFF OMITTED] T0076.004
    
                                 
                                 [GRAPHIC] [TIFF OMITTED] T0076.007
                                 

   Commitments and Obligations from the FY12 Design and Construction 
         Appropriation ($8.7M expended out of $30.9M received)

        <bullet>  Extension of design phase due to delay with review 
        agency coordination and approvals [National Capital Planning 
        Commission (NCPC) and Commission of Fine Arts].
                <all>  Historic Preservation Act-Section 106 
                Consultation Process.
                <all>  Testing of tapestry and stone as required by 
                NCPC and NPS. (Tapestry testing of this magnitude is 
                typically a construction phase expense. This testing 
                was moved forward into the design phase at the request 
                of NCPC).
        <bullet>  Continuation of design and construction document 
        preparation as a result of agency delays.
                <all>  Preparation of additional three-dimensional 
                study and presentation models for agency review and 
                approvals. o Preparation of artist's and engraver's 
                mock-ups and maquettes
                <all>  Installation of additional stone mock-ups at the 
                request of NPS. These mock-ups are typically done 
                during the construction phase.
        <bullet>  Revisions to construction contractor procurement 
        process.
        <bullet>  Cost estimating and scheduling.
        <bullet>  Extended project management and contract 
        administration.
                                 ______
                                 
    Mr. Bishop. Thank you, General.
    Mr. Moore?

               STATEMENT OF ARTHUR COTTON MOORE, 
                        WASHINGTON, D.C.

    Mr. Moore. Yes. My name is Arthur Cotton Moore. I am----
    Mr. Bishop. Mr. Moore, can you pull that closer to you? And 
once again, pull it closer to your mouth. It is not easy to 
hear.
    Mr. Moore. Yes, thank you. I am an architect and planner in 
Washington, and I come here in defense of the historic plans of 
the Nation's Capital, which I think are threatened by the 
present course of the Eisenhower Memorial. Next, please.
    It is a planned city, and there are two grand plans, the 
L'Enfant Plan and the McMillan Plan of 1901. One of the things 
that both these plans stressed was two grand radiating avenues 
radiating out from the Capitol. One, we know, is Pennsylvania 
Avenue. The other is Maryland Avenue. And the--go to the next 
one, please--you can see that the armature of the city is very 
clearly depicted in this slide. Could we go to the next one?
    One of the things that L'Enfant did, he specified very 
clearly what would be the width of the streets. And so, 
underlined up there at the top is that these two--only these 
two--grand avenues would be 160 feet wide. Can we go to the 
next one?
    And the McMillan Plan of 1901 came and said this was the 
right way to go, this was the important thing. Maryland Avenue 
was very important, and it should be 160 feet wide. Can we go 
to the next one?
    What we are presented with, however, is that, instead of 
160-foot-wide avenue through here, we have what is called a 50-
foot cartway. The dominant elements are these large columns and 
these screens or tapestries. Can we go to the next one? The 
model clearly shows what is there, what is being proposed, a 
box. And this is, of course, very inhospitable to the grand 
boulevard that L'Enfant and McMillan proposed.
    Let's go to the next one. In fact, what it does is, in 
fact, it cuts off the left arm of the grand plan. And, 
therefore, we think it is inappropriate. Let's go to the next 
one. What we thought we were going to get was a grand avenue, 
just like Pennsylvania Avenue. And, of course, we are not 
getting that. Let's go to the next one.
    One of the things that is a problem with Maryland Avenue is 
the trains have run down using the bed of Maryland Avenue. But 
in 1990 we showed how you could build Maryland Avenue above the 
tracks. And I've got a--next. Here is actually Maryland Avenue, 
the portion we have built. It is 160-feet wide, and it works 
quite well, and it is, of course, focused on the Capitol. Let's 
go to the next.
    And the various planning bodies agree with this and have 
supported this--to build Maryland Avenue all the way to the 
Capitol. Let's go to the next one.
    Now, what I would like to show you very quickly are two 
alternatives. If, in fact, the inner section of Pennsylvania 
Avenue and Constitution Avenue work very well, as you probably 
all know, and if you repeated that as a mirror image for 
Maryland Avenue and for Independence Avenue, you would get what 
is shown in the lower part of that slide. Now, go to the next 
one.
    What they would do is, although there would still be plenty 
of land south of Maryland Avenue, I like this new pattern, 
having two sections, because there are two roles that President 
Eisenhower was known for, Supreme Allied Commander, and a very 
successful two-term President. Let's go to the next one.
    This is, basically, a suggestion from the Eisenhower family 
that perhaps a statue, or something much more simple would be 
something appropriate. In this case, I have shown two statues, 
one of them expressing the role of the Supreme Allied 
Commander, and one as President. And these would, of course, be 
an excellent gateway to the brand new Maryland Avenue, which is 
so much a part of the L'Enfant and McMillan Plans. Let's go to 
the next one.
    And, indeed, these two elements could be linked under 
Maryland Avenue--let's go to the next one--which is much like 
the National Gallery West Wing and the National Gallery East 
Wing. Let's go to the next one.
    A second alternative, just to show that we don't have to 
stick with this site, this is the contemplative area--let's go 
to the next slide--which is very close to the World War II 
Memorial. Let's go to the next slide. The idea being here that 
there might be still two statues, one of them as general, 
facing the World War II Memorial, and a second one as 
President, facing the White House. And this could take place on 
a map, done in paving, of the world, indicating the major 
battles of the Second World War, and this could serve as a 
history lesson for generations to come. Let's go to the next 
slide.
    So, whether it is that, or this one, or some other one, it 
is clear that there are--let's go to the final slide--it is 
clear there are very many opportunities to not destroy the 
historic plans of Washington. And I rest my case on that, sir.
    [The prepared statement of Mr. Moore follows:]

        Statement of Arthur Cotton Moore, FAIA, Washington, D.C.

    Ladies and Gentlemen: I thank you for this opportunity.
    I appear before you today with only one goal: To defend and protect 
the L'Enfant Plan--which is on the National Register of Historic 
Places, thereby preserving the openness of Maryland Avenue and its 160 
foot wide vista of the Capitol.
    Washington was created as a completely planned city. Its first 
plan, by Pierre L'Enfant in 1791, was validated, reinforced, and 
enriched by the McMillan Commission in 1901. Together they form the 
planning constitution for our Nation's Capital.
    The basic framework of the L'Enfant/McMillan Plans was a mall 
extending from the Capitol westward to the Washington Monument, 
bracketed by two grand radiating diagonal boulevards: Pennsylvania 
Avenue, extending from the Capitol to the White House, and Maryland 
Avenue, extending from the Capitol to the Potomac River, the principal 
means of commerce in the early days of the Republic. L'Enfant not only 
laid out the streets and avenues of the Capital--he also specified the 
width of the streets, specifically calling for Pennsylvania and 
Maryland Avenues to be the broadest in the city: each 160 feet wide.
    George Washington was intimately involved with the planning of the 
Capital. There exists not only a painting of the Father of our Country 
with the L'Enfant Plan spread out on a table before him, but the letter 
he signed, sending the Plan to the Senate and the House of 
Representatives for approval.
    In 1900, largely at the instigation of the American Institute of 
Architects, the McMillan Commission was formed, and after much study, 
it found the L'Enfant Plan to be the best and proper basis for the 
development of our Nation's Capital. The Commission concentrated on 
more of a three-dimensional elaboration of L'Enfant's Plan, doubling 
the size of the Mall to include the sites for the Lincoln Memorial and 
the Jefferson Memorial. All the McMillan amplifications of L'Enfant's 
Plan were done strictly within its spirit, geometry, and 
specifications.
    Incredibly, the current proposal for the Eisenhower Memorial does 
not respect this august planning heritage. Contrary to the requirements 
of the 106 process, this historical background clearly played no role 
in the site selection and design development. Also, while the 106 
process calls for real alternatives to be considered, only three 
variants on a single theme have been offered--and each has giant 
columns (supporting large metal screens), forming a dominant box which 
denies the diagonal nature of Maryland Avenue as the mirror sister of 
Pennsylvania Avenue.
    Only one variant allows any semblance of a vehicular street, and 
that was a narrow road. There is a constant reference to a 50 foot 
cartway, or vista, which is consistently encumbered with objects right 
where the 160 foot grand avenue is supposed to be, pursuant to the 
Historic Plans. It should be noted that streets in non-federal Colonial 
Georgetown are wider than this cartway by 10 feet. In any case, the 
models show that the dominant elements form an enormous rigid box 
completely denying the diagonal nature of Maryland Avenue as the mirror 
sister of Pennsylvania Avenue.
    Importantly, from the inception of the city, for the last 213 years 
of development in this section of the Southwest, none of the hundreds 
of millions of dollars' worth of public and private buildings, have 
been allowed to encroach into the 160 foot right-of-way of Maryland 
Avenue. The Eisenhower Memorial would be the first project to do that, 
and it would clearly violate the letter and intention of the Historic 
Plans, and make a dead-end discontinuity for Maryland Avenue.
    Although emphasized in both the L'Enfant/McMillan Plans, Maryland 
Avenue is the major missing element, because in 1901, in order to get 
the train stations off the Mall, Congress gave a perpetual-use right 
for the trains to run down Maryland Avenue. For almost 200 years, no 
one was able to figure out how to bring Maryland Avenue to reality with 
the trains there.
    In 1986, I proposed a solution to this conundrum in the Washington 
Post: Because the trains ran in a ditch under the north/south streets, 
I realized that Maryland Avenue could be put in as a structure above 
the trains, connecting directly with the north/south streets. (As the 
Architect of the Portals Development, I put in a section of Maryland 
Avenue, proving the viability of the scheme, which has a host of 
benefits including greatly improved access, security and new land for 
development. The Portals' prototype can be extended to realize a fully 
completed Maryland Avenue.)
    The DC Office of Planning has recently incorporated this program in 
its Small Area Plan for the Southwest, which has been adopted by the 
City Council--and--the National Capital Planning Commission has 
recently incorporated it in its Framework Plan and its Eco-District 
Plan.
    In order to distinguish real alternatives, as called for in the 106 
process, rather than the minor variants presently being offered by the 
Eisenhower Commission, I would like to proffer two alternatives:
    (1) The first begins with the idea that Maryland Avenue and 
Independence Avenue should come together in a fashion which is the 
exact mirror of the intersection of Constitution Avenue and 
Pennsylvania Avenue to the north. In each case, the diagonal avenue 
would be dominant as L'Enfant specified. The intersection of 
Pennsylvania and Constitution Avenues works quite well for traffic, and 
it could be assumed to work equally well at the intersection of 
Maryland and Independence Avenues. Furthermore, the symmetry 
fundamental in the L'Enfant/McMillan Plans would be maintained.
    Although there could be many different concepts with this layout, I 
would like to offer one as an illustration. The Eisenhower family has 
expressed an interest in a more modest proposal, principally featuring 
a statue. In this example, in my power point, I show two statues 
representing the two major roles in which Dwight Eisenhower served our 
country: One as Supreme Allied Commander for the European theater in 
World War II, and the other as a two term President of the United 
States.
    The two statues could serve as a gateway to Maryland Avenue as 
entrance sculptures, much as has been done elsewhere at important 
points like at the entrance to Memorial Bridge. The paving around the 
statues could list or represent his extraordinary achievements in each 
of these roles. The two areas around the statues could be linked under 
Maryland Avenue just as the National Gallery West Wing is linked to the 
East Wing under Fourth Street. This underground connection would afford 
an opportunity for further exhibits about his life and service to our 
country.
     (2) Another alternative which demonstrates the possibility of a 
new site altogether, could be at the contemplative area northwest of 
the World War II Memorial. This site, which is virtually never used, 
could contain the two statues expressing his two major roles as General 
and as President, with the one as General facing the adjacent World War 
II Memorial, and the other as President facing the White House. The 
paving around the statues could represent the world, and piezoelectric-
activated lights could show the key battles of the war. Since there are 
fewer and fewer remaining veterans of that war to explain this 
significant conflict, this could serve as a history lesson for 
generations to come.
    In any case, these are two real alternatives that rely on simple 
statues and paving, and are far more modest and less costly than the 
variants on a single theme proffered by the Memorial Commission. More 
important, however, is that these proffered alternatives conform to--
and do not violate--the L'Enfant and McMillan Plans.
    With respect and gratitude,
Arthur Cotton Moore FAIA
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T0076.003
                                 
                                 

                        ARTHUR COTTON MOORE FAIA

    ACM is a sixth-generation Washingtonian, a graduate of St. Albans 
School, Princeton University, and Princeton University School of 
Architecture.
    He is a national award-winning, internationally recognized 
Architect, Preservationist, and Planner. Since 1965, ACM has practiced 
in 38 cities across the United States, and has received over 70 Design 
Awards, including two National Residential Design Awards from 
Architectural Record Magazine, and three National AIA Honor Awards.
    ACM projects have been published in over 2,700 articles in 
magazines and newspapers throughout the United States, Europe, 
Scandinavia, and Japan, and have been included in many books. His 
buildings have been in group architectural exhibitions at the Cooper-
Hewitt Museum, Columbia University's Center for the Study of American 
Architecture, and Columbia University's Avery Library Centennial 
Archive Exhibition, ``Contemporary Architectural Drawings.''
    He has served on design award juries throughout the country, 
including regional and state AIA programs, as well as the country's two 
most prestigious--the National AIA Honor Award Program, and the 
National Progressive Architecture Magazine Design Award Jury. He is one 
of 600 Architects around the world included since 1980 in all editions 
of the British compilation ``Contemporary Architects,'' recognizing 
20th/21st century Architects on an international level.
    ACM has traveled to 113 countries, several multiple times, to 
photograph and study their Architecture, and has written on 
Architecture, urban affairs, preservation, and art.
    He has lectured widely at universities and professional 
conferences, including several lectures at the Smithsonian Institution, 
where in 1978, he gave a four-part series entitled ``The Architecture 
of the Absurd.'' In 1979, he gave the Annual Guest Lecture at Trinity 
College in Dublin. In 1982, he gave the Henry Hornbostel Memorial 
Lecture at Carnegie-Mellon University, and in 1985 was honored by the 
Hirshhorn Museum with an invitation to give a Retrospective Lecture on 
his work, marking the 20th anniversary of his practice.
    ACM has had solo painting exhibitions in New York, Chicago, 
Washington, and Paris, and has participated in group painting shows in 
New York and Cologne. His travelling museum exhibition, ``Visions of 
the Future,'' was shown in museums in Prague and Poland. His 
``Industrial Baroque'' furniture series was awarded Architectural 
Record Magazine's 1990 Award for Excellence in Design.
    His first book, ``The Powers of Preservation,'' which focused on 
his historic building work and urban planning projects, was published 
by McGraw-Hill in 1998. His next two books, to be published in 2013, 
are ``Interruption of the Cocktail Hour,'' (a Washington yarn) and 
``Washington Comiks,'' a book of paintings of our nation's capital.
www.arthurcottonmoore.com
                                 ______
                                 
    Mrs. Lummis [presiding]. Thank you for your testimony. And 
now, Mr. Shubow, you are recognized for 5 minutes.

    STATEMENT OF JUSTIN SHUBOW, PRESIDENT AND CHAIRMAN, THE 
                   NATIONAL CIVIC ART SOCIETY

    Mr. Shubow. Distinguished members of the Subcommittee, I 
would like to thank you for inviting the National Civic Art 
Society to testify today. As a nonprofit dedicated to the 
classical and humanistic tradition of public art and 
architecture, we believe our monuments play an essential role 
in defining our national identity and crystalizing our historic 
memory.
    Regrettably, the current proposed Eisenhower design is not 
up to the task. We thus recommend an open, democratic, and fair 
design competition that is respectful of the public interests.
    How did we get to this turning point? The initial error was 
the decision to use GSA's Design Excellence program. That 
program was created to select licensed architects for the 
design of Federal courthouses and office buildings, not 
memorials. In fact, the very creator of Design Excellence, 
former GSA chief architect Edward Finer, strongly urged the 
Eisenhower Commission not to use the program for the memorial.
    The decision to use the Design Excellence program was an 
utter reversal of our tradition of public competitions for 
national memorials. And, if I may correct the Chairman, no 
actual design was submitted in the competition. The final four 
were so-called design visions, which are still secret to this 
day. Instead, the emphasis was on the entrants' prior works, 
firms, and reputation, all factors that favor the architectural 
elite.
    One does not need to be an experienced architect to come up 
with a brilliant memorial. One can be a student, a sculptor, an 
amateur. Not only was the selection process severely restricted 
as to who could enter, it was a closed process that solicited 
only 44 entries. This is hundreds fewer than the number of 
entries and open competitions for previous national memorials.
    The result of the closed, exclusionary memorial competition 
was the strange choice of Frank Gehry. Whatever his merits as 
an architect, he has never built a memorial. The result is a 
grandiose, deconstructionist design that is now estimated to 
cost $142 million. Made of industrial--and it is made of 
industrial steel cables that Mr. Gehry's firm has described as 
a shroud. Whether or not it is permanent, it does not appear 
permanent.
    The design is entirely discordant with our tradition of 
Presidential memorials. It also violates the urbanism of 
Washington, D.C., as Mr. Moore demonstrates in his testimony. 
Mr. Gehry's plan has been widely opposed by leading architects, 
pundits, and critics of all aesthetic and political 
orientations. We encourage you to visit our Web site, 
civicart.org, where you can find a compilation of 70 articles 
and editorials against the design.
    In short, the memorial is irredeemably wrong in its 
process, aesthetics, and cost. Congress has no choice but to go 
back to the drawing board and pass a bill to ensure that we 
build Eisenhower the monument he deserves.
    What, then, must that memorial be? Monuments are civic art 
that calls us to solemnly reflect on who we are and what we 
value. They are heroic in scale, timeless, durable, and 
dignified. They present an idea to aspire to, rather than 
present mundane reality. They must be made of noble materials, 
such as marble and bronze, not industrial materials such as 
concrete and steel. Monuments ought to be clear and unequivocal 
in their meaning. They should evince a few simple ideas in a 
way that is graspable by ordinary Americans. They must be 
legible without a guide or key, and certainly without a visitor 
center or an iPad. Monuments are statements, not question 
marks.
    A traditional man of old-fashioned virtue, President 
Eisenhower disdained modern art and architecture, which he did 
not believe represented the taste and values of the American 
people. He warned in 1962, ``We see our very art form so 
changed that we seem to have forgotten the works of 
Michelangelo and Leonardo da Vinci. What has happened to our 
concept of beauty and decency and morality?''
    America can and will build Eisenhower a monument that will 
prove his fears unfounded. The talent to do so is here. Now is 
the time to find it. Thank you.
    [The prepared statement of Mr. Shubow follows:]

 Statement of Justin Shubow, President, The National Civic Art Society

    Mr. Chairman, Ranking Member Grijalva, members of the Subcommittee, 
I would like to thank you for inviting the National Civic Art Society 
to speak today. As an educational nonprofit dedicated to the classical 
and humanistic tradition in public art and architecture, we believe 
that our most important monuments play an essential role in defining 
our national identity and crystallizing our historic memory. Civic art 
and architecture is the mirror in which the civilization sees itself.
    One year ago it was conventional wisdom that the design of the 
Eisenhower Memorial was a done deal, a fait accompli soon to be 
cemented with quite real facts on the ground. But what has been 
groundbreaking is the surge of attention from Congress and the public. 
The more they have dug and discovered, the more they have got behind 
the wrecking ball aimed at Frank Gehry's avant-garde design--a design 
that has turned out to be more fragile than anyone could have imagined.
    How did we get to this point? Any memorial competition is only as 
good as its professional adviser. In this case, that adviser was Daniel 
Feil. The Eisenhower Commission hired Mr. Feil as its executive 
architect and appointed him its agent to run the design competition. 
Mr. Feil is an urban planner who is best known for working on mega-
projects such as Reagan National Airport. To the best of our knowledge, 
he has never worked on a memorial.
    Mr. Feil chose to run the competition according to the General 
Service Administration's Design Excellence Program. This was a 
fundamental mistake since that program was created to select licensed 
architects for federal office buildings and courthouses. It was never 
intended for memorials. The very creator of Design Excellence, former 
GSA chief architect Edward Feiner, strongly urged Mr. Feil not to use 
the program for the Eisenhower Memorial.
    The decision to use Design Excellence represents an utter reversal 
of our tradition of competitions for national monuments and memorials. 
Whereas formerly we held competitions of designs, Mr. Feil ran a 
competition of designers. At no point in the competition was an entrant 
required to submit an actual proposal for the memorial. Instead the 
emphasis was on the entrants' portfolio, resume, and reputation--all 
factors that favor the architectural elite. While this might be 
appropriate for hiring an architect to design a federal office 
building, it makes no sense for a memorial. One does not need to be a 
licensed architect to come up with a brilliant design for a memorial. 
One can be a student, a sculptor, an amateur. When Maya Lin won the 
open, blindly reviewed competition for the Vietnam Veterans Memorial, 
she was an unknown college student. A present-day Maya Lin could not 
even have entered the Eisenhower competition, let alone won.
    Not only was the competition limited to licensed architects with 
substantial portfolios, it was a closed competition that solicited only 
44 entries. This is hundreds fewer than the number of entries in open 
competitions for previous national memorials. It was also a secretive 
process. To this day we do not know the identities of all the entrants, 
we have never seen what Mr. Gehry submitted, and we do not know who sat 
on the evaluation board.
    The former chief architect of GSA is not the only distinguished 
opponent of the competition. Another is Paul Spreiregen, who is 
arguably the leading expert on design competitions, and who literally 
wrote the book on the subject. Mr. Spreiregen served as an adviser for 
design competitions in Washington, D.C., including the Vietnam Veterans 
Memorial and the World Bank Headquarters. He has vociferously objected 
to the Eisenhower competition. He wrote in the Washington Post, ``Why 
weren't all American designers given the opportunity to submit 
proposals for the Eisenhower memorial? The method for doing that is a 
very well-organized and well-managed open-design competition. The 
Vietnam Veterans Memorial, the Pentagon 9/11 Memorial, the 9/11 
Memorial in New York City and the Gateway Arch in St. Louis are ample 
evidence of the reliability of open-design competitions. The design 
process for the Eisenhower memorial should have been open to all. It 
still can be, if the Gehry design is rejected.''
    In the 1990s, when the commission overseeing the National World War 
II Memorial competition held a closed competition nearly identical to 
that in this case, there was widespread public outcry and the original 
competition was scrapped in favor of an open one. The Eisenhower 
competition has ended up in exactly the same situation. Failing to 
understand the past, the Eisenhower Commission was condemned to repeat 
it.
    It is true that Robert Ivy, CEO of the American Institute of 
Architects, submitted a letter to this Subcommittee announcing that the 
trade organization opposes the proposed bill. The letter says that AIA 
neither opposes nor supports the design, but rather asserts that the 
process that chose it should not be overturned. (Note that the letter 
does not disclose that Mr. Ivy was one of the members of the evaluation 
board that selected Frank Gehry as the designer).
    How ironic is it, then, that the guidelines in AIA's own Handbook 
of Architectural Design Competitions would strongly encourage the 
competition for a project of national importance to be an open, blindly 
reviewed process in which entries are publicly displayed. The actual 
competition violated all of these guidelines. To quote the handbook:
    Open competitions are appropriate under the following 
circumstances:
        <bullet>  The nature of the project suggests that all 
        architects have an equal opportunity to be selected on the 
        basis of design merit
        <bullet>  The project requires the widest exploration of 
        potential solutions made possible by an open competition
        [...]
        Exhibitions [of entries] provide a fine opportunity to 
        stimulate public consideration of architectural design. They 
        also help to stimulate the competitive spirit of participants. 
        Knowing that their work will be displayed along with that of 
        their peers can be a stimulus to competitors. For all these 
        reasons, as full a presentation as possible of the submissions 
        should be attempted.
Note that the AIA handbook was made possible by a grant from the 
National Endowment for the Arts, and thus the guidelines have even 
wider scope than the interests of the trade association.
    The result of the poorly run, undemocratic Eisenhower Memorial 
competition was the bizarre choice of Frank Gehry, an architect known 
for his deconstructionist style, project-cost overruns, and prior 
design flaws. In the 1990s, before Design Excellence came into 
existence, Mr. Gehry said, ``My name was put up for a courthouse, and 
the General Services Administration that runs the government buildings 
just laughed at the idea.'' On another occasion he said, ``The American 
government won't even hire me to do anything. In fact we submit for 
courthouses every once in a while, and we get funny letters back, and 
people on the selection committee, the GSA guys, just guffaw to think 
of someone like me doing the project.''
    As one might expect, his Eisenhower design's style, form, 
materials, content, scale, and scope are totally anathema to and 
discordant with the National Mall and the Monumental Core. Indeed, 
Gehry has repeatedly stated his rejection of harmony as a principle of 
architecture and urban planning. Furthermore, his incredibly expensive 
Memorial is ugly and offensive to the eye according to the standards of 
the L'Enfant and McMillan Plans as well as traditional and current 
public standards of beauty. The largest element of the Memorial's 
design is a gargantuan ``tapestry'' of industrial steel cables. The 
screen is larger than the iconic Hollywood sign in Los Angeles. Viewed 
close up, the coiled steel resembles the snakes on Medusa's head. We 
fear that the tapestry would come to be called the ``iron curtain.''
    The main ``tapestry'' and two smaller ones nearby are supported by 
ten enormous pillars (so-called ``columns'') 80-feet tall and 11-to-12-
feet in diameter. The towers are so large that Gehry has admitted, 
``They are almost buildings. . . . [T]hey are huge in this scheme. So 
they are more like buildings.'' The oppressively sized pillars would 
make visitors feel like ants.
    Opponents of the highly unpopular design include the entire 
Eisenhower family along with George Will, David Brooks, David Frum, 
Ross Douthat, George Weigel, Pulitzer Prize-winner David Shribman, and 
former NEH Director Bruce Cole. Newspapers that have come out against 
it include the New York Post, Arkansas Democrat-Gazette, the Topeka 
Capital-Journal, the Washington Examiner, and the Kearney Hub (of 
Nebraska). Articles in opposition have appeared in The New Republic, 
the Wichita Eagle, the Pittsburgh Post-Gazette, the Cleveland Plain 
Dealer, National Review, the Weekly Standard, the Washington Post, the 
Baltimore Sun, the Boston Globe, Human Events, Foreign Policy magazine, 
and many more.
    Opposition has come from across the political spectrum, and from 
architects and critics both congenial and opposed to Modernist 
architecture. As a supplement to our testimony, we have included an 
index of over 70 selected articles, editorials, and letters critical of 
the Eisenhower Memorial. An 190-page compilation of those articles can 
be found at our website, www.civicart.org.
    In addition to the criticism of Gehry's design, the durability of 
the experimental structure--a cable wire mesh held in tension between 
the giant pillars--has been called into question by the government's 
materials experts. In the most recent technical report submitted to the 
National Capital Planning Commission, the Department of the Army's 
expert recommended that an identical set of duplicate tapestries be 
built to serve as enormous spare parts when the tapestry becomes 
degraded or damaged. This would entail spending tens of millions of 
dollars beyond the $142 million the Memorial is already estimated to 
cost. The government's experts have even warned of the possibility of 
dangerous snow and ice falling on visitors.
    In short, the Memorial design and process have been wrong in their 
aesthetics, wrong in their economics, and wrong in their physics. And 
perhaps Representative Darrell Issa's House Oversight investigation 
will find that the process was wrong in its ethics.
    Congress now has no choice but to go back to the drawing board and 
pass a bill to ensure that President Eisenhower gets the Memorial he 
deserves. We must keep in mind that the client here is not the 
congressional Eisenhower Commission but the Congress that created it. 
Ultimately, however, the client is the American people. Nothing could 
be more democratic than an open competition that provides opportunity 
for comment from both Congress and the public.
    Sadly, the bill under discussion today must make explicit what used 
to be assumed without question. Consider the act creating Flight 93 
National Memorial, which commemorates the flight's passengers and crew. 
Congress explicitly stated ``For the purposes of this Act, the 
terrorists on United Airlines Flight 93 on September 11, 2001, shall 
not be considered passengers or crew of that flight.'' That Congress 
was felt the need to insert this language shows that something has gone 
terribly awry among the artistic and architectural elite.
    What then are the universal requirements of a monument? Monuments 
are civic art that cause us to solemnly reflect on who we are and what 
we value. They are heroic-sized, timeless, and possess grandeur. They 
present an ideal we aspire to rather than warts-and-all reality. Sacred 
and transcendent, they inspire instead of demoralizing us. They must 
honor, not merely remember their subjects. They must be made of noble 
materials--such as marble and bronze--that have proven their durability 
over millennia, not industrial materials such as steel and PVC piping. 
Monuments are permanent and must appear permanent, unlike a scrim or a 
shroud. Monuments ought to be clear and unequivocal in their meaning: 
They should evince a few simple ideas in a way that is graspable by 
ordinary Americans. They must be legible without a guide or key, and 
certainly without a visitor center or iPad. Monuments speak to us even 
without signage. You can be inspired by a monument even if you do not 
know who is represented or what that person did. Monuments are not 
museums and they should not try to tell stories. They are not inkblots 
that leave things to the interpretation of the visitor. Monuments are 
statements, not question marks. Maya Lin rightly said that her 
intentionally ambiguous Vietnam Memorial is an ``antimonument.''
    In addition to satisfying all of these requirements, the Eisenhower 
Memorial must continue our Founder's classical vision for the nation's 
capital as embodied in the L'Enfant and McMillan Plans and the design 
of our core buildings of government. The memorial must harmonize with 
the best of our tradition of presidential memorials, the National Mall, 
and the Monumental Core. There is no better way to honor Eisenhower the 
general, the president, and the man than in the unmistakably American 
idiom that the American people love and cherish.
    A traditional man of old-fashioned virtue, President Eisenhower 
disdained Modernist art and architecture, which he did not believe 
represented the taste and values of the American people. He warned in 
1962, ``We see our very art forms so changed that we seem to have 
forgotten the works of Michelangelo and Leonardo da Vinci . . . What 
has happened to our concept of beauty and decency and morality?''
    America can and will build Eisenhower a monument that will prove 
his fears unfounded. The talent is there. Now is the time to find it.
                                 ______
                                 

              Index to Selected Articles, Editorials, and 
         Letters Critical of Frank Gehry's Eisenhower Memorial

                     Compiled March 27, 2013 by the

                       National Civic Art Society

   www.civicart.org &starf; <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a3cacdc5cce3c0cad5cac0c2d1d78dccd1c4">[email&#160;protected]</a> &starf; (202) 670-1776

            904 Massachusetts Ave. NE, Washington, DC 20002

A PDF file containing all of these articles can be found at our 
        website: www.civicart.org
Exact location:
http://www.civicart.org/Eisenhower/
Articles_Critical_of_Frank_Gehry_Eisenhower_
Memorial.pdf

Belz, Herman; An insult to Ike; Baltimore Sun, June 11, 2012
Bethel, Tom; A Monstrosity, Not a Monument; The American Spectator, 
        December 2011-January 2012 Issue
Bevilacqua, Matt; Washington's Monument Problem; NextCity, February 10, 
        2012
Blackson, Howard; Eisenhower Memorial controversy puts focus on urban 
        design; Better! Cities & Towns, March 29, 2012
Bootsma, Erik; Why a classical memorial better honors Eisenhower; 
        Greater Greater Washington, June 9, 2011
Bromund, Ted; Ordered Liberty and Controlled Chaos; Commentary 
        Magazine, March 7, 2012
Brooks, David; The Follower Problem; The New York Times, June 11, 2012
Brussat, David; The Eisenhower memorial flap; Newsday, March 12, 2012
Cooper, Robbie; What Wasteful Spending? $90M Spent (so far) on a 
        Memorial That Hasn't Been Built; Urban Grounds, March 27, 2013
Campbell, Robert; Pressing pause, for cause, on the Eisenhower 
        Memorial; The Boston Globe, October 13, 2012
Cheaney, Janie; The proposed Eisenhower memorial reflects a nation that 
        has forgotten greatness; World, January 30, 2012
Editorial Board; Some don't like Ike's memorial; The Topeka Capital 
        Journal, January 13, 2012
Cohen, Richard; With Eisenhower, art does not imitate his life; 
        Washington Post, April 9, 2012
Cole, Bruce; Doing Right by Ike: Let's give him the memorial he 
        deserves; The Weekly Standard, July 2-9, 2012, Vol. 17, No. 40
Crosby, Greg; Do They Really Like Ike?; The Tolucan Times, April 5, 
        2012
Driehaus, Richard; It isn't too late to get the Eisenhower Memorial 
        right; Washington Post, March 27, 2013
Eisenhower Family, Letters asking NCPC to halt Frank Gehry's Eisenhower 
        Memorial, January 9, 2012
Ferguson, Andrew; Re-Gendered Ike; The Weekly Standard, March 12, 2012
Frank, Jeffrey; Rescuing the Eisenhower Memorial; The New Yorker, March 
        25, 2013
Frum, David; Redesign the Ike Monument; Daily Beast, February 21, 2012
Greenberg, Paul; I Still Like Ike; Arkansas Democrat Gazette, December 
        14, 2012
Grenfell, Milton; Rybczynski is wrong on the Eisenhower memorial; 
        Better! Cities & Towns, April 9, 2012
Grenfell, Milton; A test for the Eisenhower Memorial; Better! Cities & 
        Towns, May 23, 2012
Gunther, Paul; Designing an Eisenhower Memorial On The Mall In DC; 
        Huffington Post, February 7, 2012
Hauenstein, Ralph; Honoring Ike--a veteran's perspective; Stars and 
        Stripes, August 8, 2012
Hopkins, Christopher; How Should We Remember Ike?; National Journal, 
        April 20, 2012
Howard, Sabin; What happened with Frank Gehry on the Eisenhower 
        Memorial; Sabin Howard Sculpture, December 7, 2012
Hudson, Audrey; Monumental Mistake: Eisenhower Memorial; Human Events, 
        May 2012
Jost, Daniel; Monumental Prices; Landscape Architecture Magazine, June 
        20, 2012
Joynt, Carol Ross; A Q&A With Susan Eisenhower About the Fight Over Her 
        Grandfather's Memorial; Washingtonian, January 8, 2012
Kabaservice, Geoffrey; Why Won't the GOP Stick Up For Dwight 
        Eisenhower; New Republic, March 7, 2012
Editorial; Ike earned his memorial, but make it fit the man; Kearney 
        Hub, March 13, 2012
Knight, Paul; Architecture, urbanism and the Eisenhower Memorial; 
        Better! Cities & Towns, August 15, 2012
Krier, Leon; Eisenhower Memorial, Washington, DC; Metropolis Magazine, 
        February 14, 2012
Langdon, Philip; Honoring Ike--and adding appropriately to the nation's 
        capital; Better! Cities & Towns, March 10, 2011
Langdon, Philip; The trouble bedeviling the Eisenhower Memorial; 
        Better! Cities & Towns, February 8, 2012
Leigh, Catesby; Monstrosity on The Mall; National Review, June 21, 2012
Lewis, Michael; Decline of American Memorials; Impris, April 2012, Vol. 
        41, No. 4
Lewis, Roger; Gehry's design for Eisenhower memorial misses the mark; 
        The Washington Post, January 30, 2012
Lewis, Roger; Gehry's Eisenhower Memorial design needs to be rethought; 
        The Washington Post, April 6, 2012
Lungren, Daniel and Aaron Schock, Letter to NCPC rejecting Eisenhower 
        Memorial design, February 27, 2012
Maggie; $62M Spent on Eisenhower Memorial Not In Existence PLUS $2M a 
        Year for STAFF SALARIES Since 1999; Maggie's Notebook, March 
        18, 2013
Malouf, Dan; Gehry Eisenhower memorial actually not daring enough?; 
        Greater Greater Washington, March 26, 2010
Mantyk, Evan, New Design Could Save Troubled Eisenhower Monument; Epoch 
        Times, December 12, 2012
McCrary, Lewis; Eisenhower and the Art-Architecture Complex; The 
        National Interest, March 27, 2013
Mercer, Marsha; The Eisenhower memorial is a monumental headache; 
        TriCities, July 16, 2012
Mills, Nicolaus; Rethinking the Eisenhower Memorial, what is a fitting 
        tribute to Ike?; The Guardian, July 4, 2012
Neff, Blake; Another Monumental Dispute on the Mall; New Criterion, 
        October 24, 2011
Editorial Board; More like Ike; New York Post, March 17, 2013
O'Brien, Kevin; Diminishing Eisenhower in D.C. memorial; Cleveland 
        Plain Dealer, January 12, 2012
Pogrebin, Robin; Eisenhower Memorial in Criticism Barrage; The New York 
        Times, March 19, 2013.
Quigley, Bernie; `Deconstruct' the Eisenhower memorial committee, The 
        Hill, March 21, 2012
Roche, Sam; Consider MIT, etc., and halt Ike memorial plan; Providence 
        Journal, September 26, 2012
Roche, Sam; Time to Start Over on the Eisenhower Memorial; Roll Call, 
        January 21, 2013
Roche, Sam; A Way around the Eisenhower Memorial Impasse; Metropolis 
        Magazine, November 11, 2012
Roche, Sam; Flawed Selection Process Mars Eisenhower Memorial; 
        Huffington Post, June 12, 2012
Roff, Peter; I Like Ike--Just Not His Planned Memorial; U.S. News, 
        February 22, 2013
Roff, Peter; Consensus: The Design for Ike's Memorial Has Got to Go; 
        U.S. News, March 22, 2013.
Schoenberg, Irving; Ike--and Me; National Review, July 14, 2012
Scruton, Roger; Monumental Egos; The American Spectator, April 2012
Shribman, David; Which Ike to like?; Pittsburgh Post-Gazette, February 
        12, 2012
Shubow, Justin; Let's Not Politicize The Eisenhower Memorial; 
        Huffington Post, March 1, 2012
Shubow, Justin; A video-game Eisenhower Memorial?; The Daily Caller, 
        October 24, 2012
Shubow, Justin; Frank Gehry's `Eisen Curtain' must not descend upon the 
        National Mall; The Daily Caller, October 12, 2011
Smith, Brandon James; Memorial design mocks Eisenhower's legacy; The 
        Wichita Eagle, January 13, 2012
Smith, Marion; Postmodern Memorial Will Strip Eisenhower's Legacy; The 
        Founry, March 1, 2012
Sullivan, Gregory; The brilliance of Dwight D. Eisenhower; Times of 
        Trenton, March 14, 2012
Taxpayers Tab; The Least Expensive Bill of the Week; National Taxpayers 
        Union Foundation Taxpayers Tab Issue #10, March 22, 2013
Thadani, Dhiru; A misshapen memorial to President Eisenhower; Better! 
        Cities & Towns, July 6, 2011
Tobin, Jonathan; Why Don't They Like Ike?; Commentary Magazine, 
        February 20, 2012
Walt, Stephen; Who likes Ike? Not Frank Gehry; Foreign Policy, February 
        7, 2012
Editorial Board, Ike doesn't deserve ugly 'iron curtain'; Washington 
        Examiner, June 2, 2012
Weigel, George; Gehry's Ghastly Eisenhower Memorial; National Review 
        Online, January 10, 2012
Will, George; Eisenhower Memorial misses the man; The Washington Post, 
        February 17, 2012
Wind, Eric and Erik Bootsma; The Problems with Gehry's Eisenhower 
        Memorial; First Things, March 29, 2012
Wind, Eric and Jack Carlson; The Nation Mall's Monumental Mess; 
        American Thinker, October 29, 2011
Wind, Eric and Jack Carlson; Ike wouldn't like it; New York Post, 
        September 21, 2012
Winters, Michael; The Eisenhower Memorial Controversy; National 
        Catholic Reporter, February 16, 2012
Wolf, Franck; Letter to NCPC rejecting Eisenhower Memorial design, 
        February 10, 2012
                                 ______
                                 
    Mrs. Lummis. Thank you, Mr. Shubow, and thank you, 
gentlemen, one and all.
    The Chairman will yield to herself for 5 minutes for 
questions.
    First of all, Mr. Shubow, when you look at the design, do 
you see a statement of national identity and the 
crystallization of history that you suggest should be the goals 
of a national monument?
    Mr. Shubow. As Mr. Gehry has repeatedly stated, the main 
design element are the enormous tapestries, which are held by 
giant pillars 80 feet high and 11 to 12 feet wide. Those 
pillars are so big, they are larger than the columns inside the 
National Building Museum, which are among the biggest in the 
world.
    What is on that ``tapestry''? It is steel, spindly trees 
without leaves. What does that mean? It is permanent winter. 
And I think we can all agree that the allegory for that is 
death. So thus, when I look at trees without leaves, that could 
be any landscape in America, and overwhelmed by oppressive 
pillars. No, I do not see what Eisenhower represented, and I do 
not believe that the American people would even understand what 
is supposed to be represented.
    Mrs. Lummis. Well, I stopped one day at Eisenhower's home 
in Kansas, and there are these massive oaks that are just very 
beautiful, in full leaf when I was there. And I would agree 
that depicting trees in the winter is not the scene that my 
mental image creates.
    Here is a follow-up question, and this is more with regard 
to the process. Again, for Mr. Shubow, can you explain the 
connection between the inappropriate process that you believe 
was used to select the Eisenhower Memorial design, and the 
subsequent failure of the design to generate support among not 
only people like me, the Eisenhower family, and other 
commentators that you have heard?
    Mr. Shubow. That is an excellent question. Perhaps one of 
the main reasons this memorial is barely on the public's radar 
screen, let alone Congress's radar screen, is that the entire 
competition was run secretly. No plans or so-called visions 
have ever been publicly displayed.
    As you may know, the Eisenhower Memorial Commission has 
included, as a supplement to its testimony, a letter from the 
American Institute of Architects' CEO. The irony is--and the 
CEO is opposing the bill at issue today--the irony is, 
according to the AIA's own handbook of design competitions, 
they encourage, for works of national importance, public 
consideration of architectural designs, so that the public gets 
involved and excited. And, of course, that would improve the 
fundraising.
    Mrs. Lummis. And that is in the AIA's own official 
guidelines?
    Mr. Shubow. Yes, you can find it online.
    Mrs. Lummis. Thank you, Mr. Shubow. At this time I would 
yield to the Ranking Member, Mr. Grijalva, for questions.
    Mr. Grijalva. Thank you, Madam Chair. So I get a better 
understanding, these questions will probably be--some will be 
for the whole panel, this first one is for the entire panel.
    In Chairman Bishop's legislation, it has a provision that 
essentially overturns the entire Commission membership, and the 
bill also prohibits Federal funding. Finally, the Chairman's 
bill requires a new design. And can this all be accomplished in 
3 years? That is a question for one or all.
    Mr. Moore. How long? Excuse me. How many years?
    Mr. Grijalva. Three.
    Mr. Moore. I certainly believe so.
    Mr. Grijalva. Sir? General?
    General Reddel. From the experience of watching the 
Commission work, the complexity of the process, the 
Commemorative Works Act requirements, and the review and 
approval process, I believe it would be extremely difficult to 
do that.
    Mr. Shubow. I would say if you look at the competition that 
was held for the Vietnam Veterans Memorial, it was a very 
simple competition. In fact, the program was just 36 words. In 
this case, we have three different booklets that goes on for 
dozens and dozens of pages. So, what I am----
    Mr. Grijalva. That is the--I am not done yet, thank you.
    Mr. Shubow. OK.
    Mr. Grijalva. Unless we over-reach and change the process 
itself in the legislation, then we are still dealing with that 
process and that time line. Am I correct, General?
    General Reddel. The way I have come to understand the 
process, the process has become complex and appropriately 
deliberative, especially in recent years, the last couple of 
decades, the competition for space, highly prized space, the 
need to deliberately think in terms of serving the public for 
all time perpetually. And, as a result of that, the review 
process is complicated. And the requirements are there and in 
place. So, it is not appropriate, and would be very difficult 
to circumvent or to accelerate through that process.
    In the Commission's case, they first had to decide what an 
appropriate concept was, where it should be, looked at 26 
alternative sites, and so on. So it is a very complicated 
process.
    Mr. Grijalva. Let me follow on that. I think most of us 
would agree that the Commemorative Works Act has worked well in 
proving this rigorous approval process and the siting and the 
design of new memorials that you mentioned, General.
    And this is for the entire panel. And no one on this 
Committee is even suggesting, I don't think, amending that 
process. And instead, I think most of you all want a new 
design. That seems to be the issue. So, help me understand 
this, is it a breakdown of the process, or is it a personality 
breakdown?
    General Reddel. I believe each one of us might have a 
different response to that.
    Mr. Grijalva. Just go to----
    General Reddel. First of all, I would like to assure the 
Committee members here today that the Commission took very 
seriously the legacy and attempted, at its very outset, to 
mobilize, in fact, this country's very best expertise in 
Eisenhower, to codify that, and to bring it to a stage where it 
could be appropriately given to an artist to develop. So that, 
the mention of the legacy, was taken very seriously.
    My own professional background as former professor and head 
of the Department of History at the Air Force Academy tilted me 
in that direction, and we went to General Goodpaster, we went 
to the editors of the Eisenhower Papers. We went to, literally, 
the world's expertise to specify those elements.
    Mr. Grijalva. OK. Sir? Mr. Moore?
    Mr. Moore. Yes. Well, I won a competition to do the Library 
of Congress. And we actually--in 3 years, we not only won the 
competition, but we did the whole design. So----
    Mr. Grijalva. OK, thank you.
    Mr. Moore [continuing]. I think that 3 years is quite a lot 
of time.
    Mr. Grijalva. I appreciate that. Sir?
    Mr. Shubow. As for the process, what it has given us is a 
design that is widely unpopular, incredibly expensive, probably 
not permanent. And so, therefore, that is why we are at this--
--
    Mr. Grijalva. So you would suggest that the process is the 
problem, not the personalities.
    Mr. Shubow. Well, I would think that there are actually 
multiple problems here.
    Mr. Grijalva. Would you----
    Mr. Shubow. The process is easily the initial one.
    Mr. Grijalva. So you would suggest this legislation should 
not only undo the membership of the Commission, defund it from 
a Federal site, but perhaps go as deep as changing the process 
of the Commemorative Act?
    Mr. Shubow. No, I don't believe we should change the 
Commemorative Works Act.
    Mr. Grijalva. Oh, OK.
    Mr. Shubow. It explicitly says in its purpose that the 
design should reflect a consensus of the lasting national 
significance of the subjects involved. And it is----
    Mrs. Lummis. The gentleman's time has expired.
    Mr. Shubow. OK.
    Mrs. Lummis. Thank you so much. Next we go to Mr. 
McClintock, the gentleman from California.
    Mr. McClintock. Thank you, Madam Chairman. The Ranking 
Member's concern that this bill will delay construction of the 
memorial, I think it needs to be pointed out that this memorial 
is likely never to be completed in its current form, because it 
will never be funded in its current form. This requires us to 
step back and redesign the process in a manner that will 
produce an appropriate design.
    General Reddel noted controversies involving the design of 
the Lincoln and Jefferson Memorials, of the Washington 
Monument, with the implication that, well, these are just 
normal controversies, it is an affirmation of the design. Well, 
I would say to General Reddel that if I were to place pictures 
of the Lincoln Memorial, the Jefferson Memorial, the Washington 
Monument, and this design together, and asked the question, 
``Which thing doesn't belong with the others,'' the answer is 
self-evident and intuitive, which I think speaks volumes of how 
inappropriate it is.
    Mr. Shubow, you mentioned what a memorial should be, the 
principals that should guide the design of any of our memorials 
and monuments here in Washington. And it was beautifully 
stated. Would you mind restating it, or--if you have that there 
in your text? Otherwise, I have the printed copy; I will read 
it.
    Mr. Shubow. Well, there are multiple----
    Mr. McClintock. Well, let me just point you to the 
paragraph. ``Monuments are civic art that cause us to solemnly 
reflect on who we are and what we value.'' Do you have that in 
your text?
    Mr. Shubow. I do, and I am quite glad, actually, that you 
specifically mention that, because the Eisenhower Memorial 
Commission has repeatedly said that this memorial is primarily 
intended for children. In effect, they are describing it as a 
tourist attraction, a theme park. If you even look at their 
renderings, there are children playing with kites. There is 
going to be the so-called eMemorial, where people are 
encouraged to pull out their iPods, their iPads, and other 
electronic devices to use augmented reality to look around the 
memorial.
    Mr. McClintock. Let me----
    Mr. Shubow. When you go to the Lincoln Memorial, there is 
no need for any of that.
    Mr. McClintock. Your point is well taken. But what I really 
want to focus on are the words that you spoke, which I think 
are just a beautiful description of what we ought to be 
focusing on. You said that, ``These monuments are heroic-sized, 
timeless, and possess grandeur. They present an ideal we aspire 
to, rather than warts-and-all reality. Sacred and transcendent, 
they inspire instead of demoralizing us. They must honor, not 
merely remember their subjects. They must be made of noble 
materials, such as marble and bronze, that have proven their 
durability over millennia, not industrial material, such as 
steel and PVC piping. Monuments are permanent, and they must 
appear permanent, unlike a scrim or a shroud.
    ``Monuments ought to be clear and unequivocal in their 
meaning. They should evince a few simple ideas in a way that is 
graspable by ordinary Americans. They must be legible, without 
a guide or key, and certainly without a visitor center or iPad. 
Monuments speak to us even without signage. You can be inspired 
by a monument, even if you do not know who is represented, or 
what that person did. Monuments are not museums, and they 
should not try and tell stories. They are not ink blots that 
leave things to the interpretation of the visitor. Monuments 
are statements, not question marks.''
    That is the most beautiful description of what we ought to 
be focused on that I have seen. I think that in whatever future 
legislation we adopt, this ought to be the preamble of it. I 
want to commend you for the most clear-headed statement I have 
seen on this subject, and I would leave off as I began, that 
these memorials are meant for the ages to stand the test of 
time.
    Mr. Shubow. Thank you.
    Mrs. Lummis. Thank you, Mr. McClintock. And now we will go 
to the gentleman from New Jersey, Mr. Holt.
    Dr. Holt. Thank you, Madam Chair. I am trying to understand 
really what the problems are here. I am not sure that I have 
heard that this is wildly unpopular. There are certainly some 
people who have strong objections to it. But I have also heard 
comments in favor of the design, or something like the current 
design. There is no--and I want to make sure that we are not 
just getting into warring designs.
    Mr. Moore, you have presented something that would be at 
Constitution Park, replacing some of the grove of trees there, 
I believe. There are other designs possible. And it is worth 
noting that the designs in Washington, the monuments that we 
have, and memorials, are very different: Washington and Lincoln 
and the Korean War and Martin Luther King and Freedom Plaza.
    And so, I am trying to understand whether the problem is 
with particulars, and everybody has different particular 
objections, and whether it can be brought into more complete 
acceptance by changing some of those particulars. Whether it is 
just that Maryland Avenue is not as grand now as L'Enfant 
intended, and nor is it as grand as Pennsylvania Avenue is. And 
I am sure the Maryland delegation here and the Minority leader, 
Ms. Pelosi, would love to have Maryland Avenue as grand as 
Pennsylvania Avenue. But that is a problem that exists apart 
from this monument.
    Is the objection that the trees don't' have leaves? Is the 
objection that the panels are too high and boxlike? So can we 
fix this by putting leaves on the trees and satisfying more 
people? Or making sure the panels are not rectilinear and 
perhaps lower--I don't know. But we could be redesigning this 
forever. And, as I said earlier, I am eager to see a memorial 
worthy of this great American.
    And, by the way, I mentioned earlier that my mother had 
served in the Eisenhower Administration. She turns 100 years 
old this year. She remembers the President fondly, and said to 
me just last night that we do want to respect the concerns and 
the wishes of the family. But she also acknowledged, as has the 
family, that this belongs to ages into the future, and not just 
the family.
    So, let me ask you, Mr. Cotton, in the short time I am 
allowed now, is it that the panels are too high and too 
boxlike? If this design were moved to Constitution Park in 
place of that grove of trees, would you object to the design? 
Or is it what it does to Maryland Avenue that offends you?
    Mr. Moore. Yes, I would like to answer that. Basically, the 
panels and the columns could even be redesigned to allow 
Maryland Avenue to go through.
    Maryland Avenue has actually been endorsed by the National 
Capital Planning Commission----
    Dr. Holt. It would help me understand it better if you 
answered the question.
    Mr. Moore. Yes.
    Dr. Holt. If this design were moved to Constitution Park, 
would that remove your objections?
    Mr. Moore. It would, it would, because I think that what we 
are trying to do here--and I was only showing you alternatives 
that don't interfere with the historic plan of Washington----
    Dr. Holt. Well, I found your alternatives attractive.
    Mr. Moore [continuing]. Which has been around for 213 
years.
    Dr. Holt. I understand that.
    Mr. Moore. And there has been no incursion into the 160-
foot reservation for Maryland Avenue. So it can be realized 
exactly as L'Enfant and McMillan--and we intend to do that.
    Dr. Holt. Thank you. Well, I have not allowed enough time 
for other comments. I just go back to remembering the fierce 
objections to Maya Lin's design of the Vietnam Memorial. I mean 
fierce objections. It is now highly regarded, and a place of 
reverence, even. So I think maybe there is a lesson there. 
Thank you.
    Mrs. Lummis. Thank you, Mr. Holt. And there is definitely a 
lesson here, because as we have gone along just the dais here, 
I like the concept of keeping Maryland Avenue's original 
orientation open and available. Some others here not so much. I 
don't like the way that Martin Luther King was depicted in that 
memorial, others do. Some like this design, I'm not really 
smitten with this design for the Eisenhower Memorial. So even 
just among the people here, you see the kind of diversity of 
opinion that makes these things so difficult.
    So, not myself being terribly artistic, I am going to 
switch to the dollars for my next round of questioning. General 
Reddel, of the $30 million in taxpayer dollars that were 
appropriated in December 2011 for construction--and I 
understand that in front of this Committee about a year ago the 
Commission stated that $9 million had been obligated--how much 
has been spent? And what was it spent on? And is there any 
left?
    General Reddel. The money you are referring to that was 
given to us for design and construction remains basically there 
with, I believe, something like $7 to $9 million having been 
expended in support of completion of the design activities 
preparatory for construction.
    Mrs. Lummis. OK. And could you tell me what that entails? 
What goes into preparation for construction? Is it design 
drawings?
    General Reddel. Well, I would like to answer that question 
technically and correctly. And in order to do that, it would be 
best, really for me to try to get back to you, ma'am with the 
details on that.
    Part of the effort here and the monies expended have been 
tied to the delay in the process as we have made an effort to 
bring us completely as possible to an end of the design process 
itself. And----
    Mrs. Lummis. I would be most grateful for a complete 
accounting of that $30 million to date, and planning was 
curtailed in order to accommodate discussions such as the one 
we are having today. Might that be provided to this Committee?
    General Reddel. Of course, yes. Yes, indeed, ma'am. We can 
do that.
    Mrs. Lummis. And I would like to visit about the lack of 
transparency in the process. What is the goal of avoiding 
transparency?
    General Reddel. Well, first of all, I would like to suggest 
that there has been no conscious effort by the Commission to 
avoid transparency. The Commission has complied from the very 
beginning with the Commemorative Works Act, the other 
provisions for hearings. The 22 meetings we had on a regularly 
scheduled and publicly available basis over the 2 years of the 
design process I put forward as an example of what is a public 
process.
    The degree to which people began to participate in that 
process or make contributions in that process on their own 
volition is a matter up to them. Some individuals did not 
participate in all those 22 meetings. Some came, some did not. 
But I bring that point up because there has never been a 
concern by the Commission to be secretive or not to share the 
results.
    And I would like to suggest that even our Web site today is 
an effort to put the facts forward as best we can. The minutes 
of all of our meetings are available there. And, in fact, 
people can judge for themselves by reading those minutes the 
degree to which we were deliberate, informed, and tried to 
benefit from the history of the past.
    The other thing is that we were benefitting, I believe, 
from an unusual amount of breadth and bipartisanship in the 
effort to do the memorial right for this great American. And I 
bring that up in part because I didn't know Senator Inouye had 
done so much for memorialization. And his advice was extremely 
important for us. And he would be the last individual to say 
somehow we should be secretive in the process. At the same 
time, on the Republican side, from the day that Senator Ted 
Stevens was involved, now with Senator Pat Roberts from Kansas, 
there has been a real effort to try to share as much as we can 
the results of our work.
    So, the sense that it was a closed-door process is, from my 
viewpoint, as you can gather, not fully correct.
    Mrs. Lummis. Thank you, General. And I will look at your 
Web site.
    I might also ask both of our other witnesses to respond, as 
well. Mr. Moore?
    Mr. Moore. Yes. Me, I have attended. And in conjunction 
with Judy Feldman, who is the Chair of the Coalition to Save 
our Mall, we have been attending the 106 process, the historic 
preservation process.
    One of the dictates of that process is to consider the 
historic context that you are putting your memorial in. And, in 
fact, the historical context is the great plans of Washington, 
L'Enfant and McMillan. So, we feel that was not regarded, and 
we have said so at the 106 meetings.
    Mrs. Lummis. Thanks, Mr. Moore. My time has expired. And so 
I want to just give Mr. Shubow 10 seconds to respond to the 
same question, as well.
    Mr. Shubow. Sure. I would stress that there are no minutes 
from the crucial meeting at which the Commission chose Frank 
Gehry. When the Commission was asked about this, they said they 
had no official meeting at that time.
    Mrs. Lummis. Thank you. Mr. Grijalva.
    Mr. Grijalva. Yes. And pardon me for asking questions in an 
attempt to gather information about the consequences, intended 
or unintended of the legislation or the precedence that might 
be set. Because as we rush this forward, questions will remain.
    And one of them, some have called on this panel and others, 
for the end of Federal funding for the memorial in addition to 
a new design. So if we amend the original authorization to 
reflect these two changes, no funding, new design, what then is 
the oversight role for Congress? I can begin with you, General, 
if you don't mind. They are tied to--well----
    General Reddel. Well, I gather we are dealing with 
hypotheticals here.
    Mr. Grijalva. Hypothetical would be that this legislation 
moved forward and passes and is signed by the President. A 
series of hypotheticals.
    General Reddel. Well, in realistic effect, it would set 
aside the cumulative work of the congressional Commission, 
which was tasked by law to do what it has done. My impression 
is it would set that work, the invested money, taxpayer money, 
and time--the Commission expended $10 million over the period 
of time to come to terms with where the memorial should be, and 
the direction that it should take, given the diversity and 
complexity of the President-and-General's legacy. That work and 
the subsequent work would be, in effect, limited, curtailed, 
and delimited in a very real, real way. In other words, to set 
that effectively aside.
    And the other thing I would point out is there has been a 
considerable continuity of effort with the commissioners 
through time. They have learned about the process, they have 
learned from each other. They have come to terms with the 
complexity of dealing with these things. And so, that 
experience would, from my viewpoint, be set aside. And that 
would not be insignificant.
    Mr. Grijalva. OK, thank you. I yield back, Madam Chair.
    Mrs. Lummis. OK. Mr. Holt.
    Dr. Holt. Thank you. I didn't allow time for the General or 
Mr. Shubow to answer my earlier question, whether you think 
that there are a finite number of specific changes that could 
be made to the design before us to make it acceptable to 
obviously not everybody, never everybody, but to the principal 
objectors.
    Mr. Shubow. I would say that the design is not salvageable.
    Dr. Holt. Not salvageable. OK.
    Mr. Shubow. Putting aside what is on the tapestries, any 
structure of this kind, if you look at it close, looks like 
Medusa's head. You have never seen photos of the tapestry up 
close. The only way I found them was digging at the Commission 
of Fine Arts. They are giant steel cables. It looks like 
something you would find on a bridge.
    In addition to that, I would note that being a steel 
``tapestry,'' it is likely that it will end up being called The 
Iron Curtain, which I believe is not appropriate as an 
Eisenhower----
    Dr. Holt. Yes, I had read the family's objections that 
tapestries were what are found in structures in totalitarian 
countries. I guess I don't understand that.
    But General, what possibilities do you see of further 
changes in the existing design to address--and in part you 
might talk about some of the changes that have been made to 
bring it to this point.
    General Reddel. Right. Well, in addressing that question--
--
    Dr. Holt. To address objections.
    General Reddel [continuing]. I am, of course, as you might 
imagine, hesitant to speak for the architect himself, and I 
don't pretend to do that. So I will give you my view in an 
effort to respond openly and candidly to your question.
    My impression of the architect is that he has a method and 
a process which is unusually open and flexible that he listens 
repeatedly to inputs, and that he does make significant 
changes. I did attend the meeting that he held in New York City 
in December 2011 as an initial effort on his part with Susan 
and Anne Eisenhower as representatives of the family, and 
watched at that meeting where, from my viewpoint, he very 
consciously chose that he would address the question of not 
giving enough significance to the General and the President, in 
terms of his greatness. And he quite literally moved away from 
the baas relief images that he had, and created the 
independent, heroic-sized statuary, which continues to be under 
additional refinement.
    He has listened, I believe, very carefully to the 
descriptions of the time and seasons of the year, as they are 
reflected in the artistic work of the tapestries themselves. In 
contrast to some of the things you have heard today, the 
Commission of Fine Arts was emphatic about its belief that he 
had achieved the artistic effect they had, in effect, directed 
him to achieve.
    So there are, really, obviously, two sets of opinion in 
this. And I have gone on with my view of his flexibility as an 
artist and as an architect, because I believe he does listen, 
and that he has made repeated efforts to have people visit him 
at the studio. Congressman Issa, who was with us earlier, you 
may recall said that he has visited the studio and taken a look 
at this. To my way of thinking, that door has always been open 
and is open today.
    Dr. Holt. Another question, General. How many commissioner 
vacancies are there, currently?
    General Reddel. We currently, with Senator Inouye's 
passing, now have a total of three. So we have a Presidential 
vacancy. We also have a senatorial vacancy. And then, 
Congressman Boswell from this chamber was our last----
    Dr. Holt. And this legislation would create all vacancies. 
One commissioner would be able to continue, I guess. Is that a 
correct interpretation of the legislation?
    General Reddel. Yes, the commissioners are not term-
limited, as it now exists. In other words, they----
    Dr. Holt. And this would--I see.
    General Reddel. They have continued.
    Dr. Holt. Another thing that I am--and it is maybe not for 
you, any of these witnesses, to clarify. As I read the bill, it 
says a design would be selected for the memorial, as an 
alternative.
    So, it doesn't necessarily mean that this design is in the 
trash heap. There would be another choice. There is alternative 
A, which exists now. This would require that there be selected 
an alternative to the current design, which, as I read it, 
would be alternative B. It surely would delay things, but it 
might not require junking what exists.
    Anyway, the only thing worse than art designed by a 
Committee is art designed by a Congressional committee.
    [Laughter.]
    Dr. Holt. So I hope we can find a way to bring this to 
general acceptance so that we can have a memorial to this great 
American. And----
    Mrs. Lummis. Those were fine summary remarks, Mr. Holt.
    Dr. Holt. I think that is the end of my time. Thank you, 
Madam Chair.
    Mrs. Lummis. Thank you. The gentleman yields back. I would 
like to thank you gentlemen and gentlelady for your valuable 
testimony and patience, and the Members for their terrific 
participation. Members of the Subcommittee may have additional 
questions for the witnesses, and we ask you to respond to these 
in writing.
    General, you have already heard my request for a full 
accounting of the $30 million.
    And we look forward to receiving that. The hearing record 
will remain open for 10 days to receive these responses.
    If there is no further business, the Subcommittee stands 
adjourned.
    [Whereupon, at 11:37 a.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    [A press release submitted for the record by The American 
Institute of Architects follows:]

THE AMERICAN INSTITUTE OF ARCHITECTS
Press Release:
Architects Issue Statement Opposing House Bill Eliminating Funding for 
        Eisenhower Memorial

Contact: John Schneidawind 202-626-7457
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cfa5a0a7a1bcacbbaeaaa6abaeb8a1ab8faea6aee1a0bda8">[email&#160;protected]</a> http://tmtter.cpSAIA_Media

For immediate release:

    Washington, D.C.,--March 15, 2013--The American Institute of 
Architects (A1A) today issued the following statement in opposition to 
the Dwight D. Eisenhower Memorial Completion Act, introduced Wednesday 
by Rep. Rob Bishop (R-Utah). Among other things, the legislation would 
mandate an alternative to architect Frank Gehry's design for the 
Eisenhower Memorial and would eliminate further federal funding for the 
project.
    Please attribute the following statement to AIA Chief Executive 
Officer Robert Ivy. FAIA:
    ``Representative Bishop's legislation allows Congress to exercise 
governmental authority in a wholly arbitrary manner that negates the 
stated selection process It is nothing more than an effort to 
intimidate the innovative thinking for which our profession is 
recognized at home and around the globe. We intend to vigorously oppose 
it.''
    ``The AIA doesn't offer any assessment on whether the Eisenhower 
Memorial Design is good or bad. The Congressman says the intent of his 
bill is to seek consensus around a design for the memorial. We wonder 
how his bill can achieve that stated consensus when it specifically 
bans the current design proposal.''
                                 ______
                                 
    [A letter submitted for the record by General P.X. Kelley, 
USMC (Ret.), Former Chairman, American Battle Monument 
Commission, and Former Commander, U.S. Marine Corps, follows:]

[GRAPHIC] [TIFF OMITTED] T0076.005

[GRAPHIC] [TIFF OMITTED] T0076.006

                               <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
